<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                        WEDNESDAY, MAY 14, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:33 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Specter, Domenici, 
Shelby, Burns, Inouye, Hollings, Byrd, Leahy, Durbin, and 
Feinstein.

                         DEPARTMENT OF DEFENSE

                        Office of the Secretary

STATEMENT OF HON. DONALD RUMSFELD, SECRETARY OF DEFENSE
ACCOMPANIED BY:
        DOV ZAKHEIM, Ph.D., COMPTROLLER, DEPARTMENT OF DEFENSE
        GENERAL PETER PACE, U.S. ARMY, VICE CHAIRMAN, JOINT CHIEFS OF 
            STAFF

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Good morning, Mr. Secretary, General Pace, 
and Secretary Zakheim. We welcome you back before the 
committee.
    Because of the number of people I believe will come to the 
table, before we get started I ask that all members limit their 
comments to not more than 2 minutes as we get started on this 
hearing so we can listen to the Secretary and get Senators' 
questions.
    The committee continues to review the fiscal year 2004 
defense budget and we are going to be very interested in 
hearing from you about the expenditure of the 2003 supplemental 
for military operations in Iraq and for the global war on 
terrorism. We also look forward to hearing today your 
priorities in the budget request regarding investments for the 
future derived from lessons learned from these overseas 
operations we have been involved in.
    It may be too early to really understand all of those 
lessons, but we do hope to hear from you about our operations, 
not only in Iraq, but Afghanistan. I know we will have many 
times in the coming months to review your statement in full, 
which we will put in the record as though read.
    I yield to my good friend from Hawaii, and I hope all 
Senators will abide by the 2-minute limitation.

             PREPARED STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Good afternoon, Mr. Chairman. Pursuant to 
your request, may I request that my statement be made part of 
the record.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Good morning Mr. Secretary. I want to join our chairman in 
welcoming you as the subcommittee concludes its Defense 
Department hearings on the fiscal year 2004 budget request. Mr. 
Secretary, these days we hear the word transformation a lot. I 
am sure you and the chairman will recall that it was General 
Shinseki who first used the term to describe his plans for the 
Army.
    Mr. Secretary, today we hope you will inform us how the 
concept of transformation is incorporated in your budget 
request for fiscal year 2004. But Mr. Chairman you and I are 
also keenly aware that the systems that were so successful in 
the recent war in Iraq were not part of transformation; 
virtually all resulted from investments by previous 
administrations.
    The M-1 tank, Apache helicopter, and the F-117 were 
developed in the 1970's. The Tomahawk missile, the B-2 bomber, 
the aegis ships were first purchased in the 1980's. Even 
JSTARS, and JDAM missiles were developed long before the 
current administration came into office.
    So we hope to hear as well Mr. Secretary how your fiscal 
year 2004 request builds on the successes of your predecessors.
    During our hearings this year we received testimony from 
the leaders of the military departments and the Guard and 
Reserves, and from the Surgeons General. As we have examined 
the testimony of these officials, it is clear they are 
basically pleased with your budget request.
    The Navy might not have enough ships, but that is mostly 
because the ship programs aren't ready to be accelerated.
    This year, we learned more about the shortfall and aging of 
our Air Force tanker and transport aircraft while we await your 
decision on leasing.
    General Hagee gave us an optimistic assessment of the V-22 
for the marines. We would like to hear your assessment as well.
    The Army testified that it desperately needs six Stryker 
brigrages. Again, we await your thoughts on this matter.
    We would also like to hear about your reviews of our 
amphibious forces and submarine fleet, and the status of our 
space programs. Mr. Secretary, you know this committee wants to 
help you transform the military to ensure that we can prevent 
future wars. As always, we stand ready to assist you.
    Thank you Mr. Chairman and I look forward to hearing the 
Secretary's testimony and responses to the committee's 
questions.

    Secretary Rumsfeld. Good morning.
    Senator Inouye. Good morning, Mr. Secretary. I want to join 
my chairman in welcoming you and your staff to be with us today 
for a very important hearing. May I congratulate you and, 
through you, the troops of the United States of America.
    Secretary Rumsfeld. Thank you very much, sir. They did a 
wonderful job.
    Senator Stevens. Senator Burns.

               PREPARED STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. I will submit my statement for the record, 
Mr. Chairman. We want to welcome the Secretary of Defense this 
morning and look forward to hearing his comments. We are 
looking at a different kind of a world now since the Iraqi 
operation and I look forward to working with the Secretary in 
doing some of that planning.
    Thank you very much.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns

    Thank you, Mr. Chairman. I would like to thank you, 
Secretary Rumsfeld, for being here today. I know you all are--
as so many are--incredibly busy, considering current events 
around the world.
    Our active military forces have seen a lot of action as of 
late. The Guard and Reserve components have experienced an 
increased operations tempo as well. The performance of our 
military men and women has been outstanding.
    Our military has performed honorably in the latest missions 
with which it has been tasked--the Global War on Terrorism, 
Operation Enduring Freedom and Operation Iraqi Freedom. While 
there indeed was a lot that was done right in all of these 
operations, I hope we continue to look back to see where we 
could have done better. Here at home, we have witnessed 
employers and communities coming together to support these men 
and women and their families.
    Ensuring that our military men and women have the proper 
training, equipment and facilities necessary to carry out their 
duties is essential. I pledge to do what I can to ensure that 
the United States military has the tools, skills and support 
needed to maintain its position as the finest fighting force in 
the world.
    Again, I thank you for being here today. I look forward to 
hearing your testimony and listening to the discussion this 
morning.
    Thank you.

    Senator Stevens. Senator Hollings.

                STATEMENT OF SENATOR ERNEST F. HOLLINGS

    Senator Hollings. Thank you, Mr. Chairman.
    Mr. Secretary, I have supported you before you became 
popular, and the jointness that I have in what we call SPAWAR 
down in Charleston, South Carolina, I want you to see that. 
That is a Rumsfeld operation and I want you to come and visit 
it.
    Thank you, Mr. Chairman.
    Senator Stevens. Mr. Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Mr. Chairman, I just want to welcome the 
Secretary back here. There is nothing like success and you 
epitomize that.
    Thank you.
    Secretary Rumsfeld. Thank you, sir.
    Senator Stevens. Senator Byrd.

                  STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Thank you, Mr. Chairman.
    Mr. Secretary, I want to congratulate the Department on the 
work that it has done with respect to cleaning up the 
information concerning the status of accounts. We talked 
several months ago about the fact that the Defense Department 
could not trace, could not trace $3 trillion of its inventory, 
of its accounts. Dr. Zakheim was just telling me a little while 
ago that you have gotten that down now to less than $800 
million, you are still working on it, and I want to 
congratulate you on that, on that progress.
    You indicated at that time that you were going to get your 
teeth into it, that you were going to get hold of it, and you 
were going to turn it around, and you are doing that. You are 
doing that. I want to thank you and congratulate you.
    Secretary Rumsfeld. Thank you, sir.
    Senator Stevens. Mrs. Feinstein.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thank you very much, Mr. Chairman.
    I would just say welcome. I have a number of questions and 
I will reserve them for the appropriate time. Thank you.
    Senator Stevens. I thank you all for your cooperation. 
Senator Leahy, did I call on you?

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. You did not, but I am glad to see the 
Secretary. When he first--when he was first Secretary of 
Defense, he was the youngest Secretary of Defense; I was the 
second youngest member of the Senate. I have aged. He has done 
a Dorian Gray; he has not. I am glad to see him here.
    Senator Stevens. Again, I thank you all.
    Mr. Secretary, pleased to hear from you, and the statements 
you have presented will be printed in full in the record.
    Secretary Rumsfeld. Thank you very much, Mr. Chairman and 
members of the committee. I appreciate your putting the entire 
statement in the record and I will make some remarks from that 
statement.
    Senator Stevens. We do not have copies of that statement. 
They gave them out to the press, but we do not have them up 
here. It would be nice if we had one, too.
    Secretary Rumsfeld. I will see that that happens.
    Senator Feinstein. Yes, we do.
    Secretary Rumsfeld. Others seem to have it. I do not know.
    Senator Stevens. Thank you.
    Secretary Rumsfeld. We can pass one up to you, Mr. 
Chairman.
    Senator Stevens. Thank you very much.

                 SECRETARY RUMSFELD'S OPENING STATEMENT

    Secretary Rumsfeld. Mr. Chairman and members of the 
committee: I am accompanied by Dr. Dov Zakheim, Comptroller of 
the Department of Defense, and General Pete Pace, the Vice 
Chief of Staff--the Vice Chairman correctly, the Vice Chairman 
of the Joint Chiefs of Staff, in Dick Myers' absence.
    We thank you for this opportunity to update the committee 
on our progress in our efforts to try to strengthen the 
Department to meet the challenges of the 21st century and to 
discuss the President's request for fiscal year 2004 to 2009. I 
also want to thank the members of this committee, Mr. Chairman, 
and you for the action, prompt action, on the President's 
emergency 2003 supplemental request for the global war on 
terror. Passage of that legislation will certainly help provide 
the fighting men and women with the capabilities they need, to 
prosecute the war on terror in the weeks and months ahead.
    As several of you have said, our troops have been and are 
doing a truly superb job all across the globe, and we are 
certainly grateful to them for their dedication and their 
courage, and also for the fact that they are all volunteers who 
stepped forward to serve their country. They crossed hundreds 
of miles in Iraq, facing death squads and dust storms, and 
liberated Baghdad in less than a month.
    What they accomplished is very likely going to go down in 
history books.

                        APPLYING LESSONS LEARNED

    The Department, as you point out, cannot wait for history 
to be written. We need to meet the threats that this dangerous 
new century poses, and threats that emerge often without 
warning. We have to apply the lessons from the experiences in 
Afghanistan and Iraq to transform the Department and the 
services as to how they organize, how they train, how they 
equip and exercise and fight.
    Even now, while the lessons learned process is still in its 
early stages, we can already see that the experience in Iraq 
has validated some of the strategic decisions that we made in 
our defense reviews over the past 2 plus years, decisions that 
in some ways contributed and drove this 2004 budget.
    Consider a few of the lessons. One is speed, and it 
matters. Coalition forces pressed through southern Iraq in a 
matter of weeks. It seems likely that the enemy was not able to 
mount a coherent defense or attack its neighbors, as it had in 
1991 with Scud missiles, or destroy its oil wells. It did 
manage to destroy a handful or so, but not all of them, as they 
did in Kuwait 12 years ago. We believe that in part this was 
because the coalition advance was so much faster than had been 
anticipated.
    The experience highlights the value of capabilities that 
can move quickly into theater, reach targets with speed and 
agility.
    Another important lesson involves intelligence and the 
ability to act on intelligence rapidly. In Iraq, using time-
sensitive targeting cells, the coalition was able to launch 
attacks on enemy targets in some cases in 20 minutes, based on 
intelligence information that was fresh. Planes taking off for 
bombing runs on occasion did not receive their targeting 
information until they were in the air and well on their way.
    The success of Operation Iraqi Freedom helps to validate 
the recommendation in the budget for increased investments in 
command, control, communications, intelligence, and persistent 
surveillance.
    Another is the importance of precision. The capabilities 
employed in Iraq were discrete. One new weapon used for the 
first time in Iraq, a thermobaric Hellfire missile, can take 
out the first floor of a building without damaging the floors 
above and is capable of reaching around corners, striking enemy 
forces that hide in caves or bunkers and hardened multi-room 
complexes. It went from development to deployment in less than 
1 year.
    Coalition military planners used a sophisticated computer 
model to determine the precise direction, the angle of attack, 
and the type of weapon needed to destroy desired targets while 
sparing nearby civilian facilities.
    It was important that we won, but it was also important how 
we won, and the fact that this conflict was done with greater 
precision than any conflict in history and as a result it had 
to have persuaded the Iraqi people that the effort was not 
against the country of Iraq, was not against the Iraqi people, 
was not against the religion, but, in fact, was against a 
regime.
    We believe that these experiences support the decision to 
request increases in the 2004 budget for research and 
development, testing, evaluation, procurement, as well as the 
decision to try to begin changing how we develop new 
capabilities by employing spiral development to allow us to 
bring new weapons to the field in a matter of months or years 
instead of decades, which has been the pattern.
    Another lesson in Iraq is the importance of joint 
operations. U.S. forces, as General Tom Franks properly points 
out, did not fight as individual services on a deconflicted 
basis, which has been historically the pattern. Instead, they 
fought as a truly joint force. One example is the rescue of PFC 
Jessica Lynch, which was made possible by a joint team of Navy 
SEALs, Army Rangers, Marines, Air Force Special Operators, of 
course with the help of an Iraqi citizen.
    The joint warfighting experience in Iraq supports the 
request in the budget to make new investments in joint training 
and in joint warfighting capabilities.
    Another lesson was the importance of Special Operations 
Forces. In Iraq the special operators were the first coalition 
forces to hit the ground. Indeed, a number of them went in 
before the war formally began, with hundreds more pouring into 
the western portion of Iraq and other regions just before the 
ground invasion, securing airfields, attacking terrorist 
facilities and regime targets, and taking out the regime's 
capability to launch attacks against neighboring countries.
    These experiences, as well as the remarkable performance of 
special operators in Afghanistan, we believe support the 
decisions that we have made and the proposals we have made to 
transform the Special Operations Command and to request needed 
new investments in Special Operations in the budget.
    There will be other important lessons as we study Operation 
Iraqi Freedom. But the point is this. This budget was developed 
with warfare of this kind in mind and the experiences in 
fighting this war have confirmed the decisions made in the 
defense review, which are reflected in the budget before the 
committee.

                 TRANSFORMING TO MEET CHANGING THREATS

    Mr. Chairman, over the past 2 years the senior civilian and 
military leaders of the Department have been working to 
determine how the Department of Defense (DOD) can best 
transform to meet the changing threats of the new century. This 
year's budget request before you is the first to fully reflect 
the new defense strategies and policies and the lessons of the 
global war on terror. Our defense review identified six goals 
that drive transformation efforts:
    First, we have to be able to defend the homeland and bases 
of operations.
    Second, we have to be able to project and sustain forces in 
distant theaters. That is clear after these two recent events.
    Third, we have to be able to deny enemy sanctuaries.
    Fourth, we have to improve space capabilities and maintain 
unhindered access to space.
    Fifth, we need to harness our substantial advantages in 
information technology to link up different kinds of United 
States (U.S.) forces so that they can fight jointly.
    And sixth, we have to be able to protect U.S. information 
networks from attack and to be able to disable the information 
networks of our adversaries to limit their ability to 
communicate.
    This budget request funds investments that support these 
transformational goals. Over the next 6 years, we have proposed 
a 30 percent increase in procurement funding and a 65 percent 
increase in funding for research, development, testing, and 
evaluation above the 2002 baseline budget. That is an 
investment of roughly $150 billion annually.
    In addition to these increases, the research, development, 
test, and evaluation (RDT&E) spending will rise from 36 percent 
to 42 percent of the overall investment budget. This shift 
reflects a decision to accept some near-term risk in order to 
accelerate the development of needed next generational systems.
    Among the more important transformational investments we 
propose is a request for funds to establish a new Joint 
National Training Capability. To ensure that U.S. forces train 
like they fight and fight like they train, we have budgeted 
$1.8 billion over the forward year defense plan to fund range 
improvements and to permit more of both live and virtual joint 
training, an annual investment of about $300 million.
    The total investment in transforming military capabilities 
in this budget request for fiscal year 2004 is $24 billion or 
about $240 billion over the Future Year Defense Program.

                             BALANCING RISK

    Even as we accept some increased near-term risk--and this 
budget does accept near-term risk--so that we can prepare for 
the future, it also recognizes that new and unexpected dangers 
will likely be awaiting us over the horizon. That is why this 
budget requests increased investments in critical areas such as 
readiness, quality of life, improvements for the men and women 
in uniform, and to make certain existing capabilities are 
properly maintained and replenished.
    We have made investments that should stabilize funding for 
training, spares, and OPTEMPO and put a stop to past practices 
of raiding the investment accounts to pay for the immediate 
operations and maintenance needs. So we stop robbing the future 
to pay for today's urgent bills.
    In this request for fiscal year 2004, we increase the 
shipbuilding budget by $2.7 billion, making good on our hope 
last year that we could increase shipbuilding from five to 
seven ships per year.
    We increase the Special Operations budget by $1.5 billion 
to pay for equipment lost in the global war on terror and for 
an additional 1,890 people.
    We increase military and civilian pay proposals by $3.7 
billion, increase missile defense by $1.75 billion, including 
increased funding for Research and Development of promising new 
technologies, and to deploy a small number of interceptors 
beginning in 2004.
    The President has asked Congress for a total of $379.9 
billion for 2004. That is a $15.3 billion increase over last 
year's budget. But even that increase only moves us part of the 
way, requiring us to make tough choices between competing 
demands, and that means that some desirable capabilities do not 
get funded in this budget.
    Yet, in making those decisions we believe we made better 
choices this year because we followed a new approach to 
balancing risks that we developed in last year's defense 
review. It is an approach that tries to take into account not 
just the risks to operations and contingency plans, but also 
the risks to the force, to the men and women in uniform, to 
make sure we can attract and retain the right people, and risks 
to modernization or the failure to modernize, if you will, as 
well as the risk to the future or the failure to transform, 
risks that in the past had often been crowded out by more 
immediate, pressing demands. The result is, we believe, a more 
balanced approach and a more overall coherent program.
    To free resources, the services have stepped up and will be 
canceling, slowing, or restructuring a number of programs so 
that they can invest those savings in transforming 
capabilities. In all, by retiring or restructuring less urgent 
programs we believe we can achieve savings of some $80 billion 
over the Future Year Defense Program, money that will be 
reinvested by the services in capabilities for the 21st 
century.
    As you consider the budget, I am sure you will hear 
pleading for a number of programs and plausible arguments as to 
why this or that program should be saved or funded at a higher 
rate. I suspect some may disagree with decisions that have been 
made in this budget and may want to make changes in the budget 
proposal, and certainly as a former member of Congress I 
recognize that Article I of the Constitution, the Congress is 
Article I, that the President proposes and the Congress 
disposes. I know that.
    But it is also important, it seems to me, that as the 
committee considers potential changes it recognizes that this 
budget--we have tried to balance those risks, and it is not an 
easy thing to do. This is not to suggest that the budget before 
you is perfect. Certainly no one has a monopoly on wisdom, and 
there are a number of examples I could cite wherein Congress 
pressed the Executive Branch over the years to invest in 
programs, such as the Joint Surveillance Target Attach Radar 
System (JSTARS), Unmanned Aerial Vehicles (UAV's), that later 
proved critical to the success of the armed forces.
    What I am suggesting is that if changes are made, and they 
will be, that they be made in a coherent way, that we have a 
chance to talk them through, and that they are made with a full 
understanding of the implications, not only on the program in 
question that somebody may want to increase, but also on the 
costs in terms of the reductions that have to take place in 
other areas.
    We have done our best to develop a budget with what we 
believe has been unprecedented transparency. We hope that this 
spirit of openness and cooperation will continue as Congress 
deliberates.

                          IMPROVING MANAGEMENT

    Finally, Mr. Chairman, we really cannot transform unless we 
have the ability to better manage the Department. In an age 
where terrorists move information at the speed of an E-mail, 
money at the speed of a wire transfer, and people at the speed 
of a commercial jet liner, the Defense Department is, to be 
very honest, still bogged down in bureaucratic processes that 
resulted from the industrial age, not the information age.
    Some of our difficulties are self-imposed by the 
Department, to be sure. Others, however, are the result of law 
and regulation, and together they have created a culture that 
too often stifles innovation in the Department. The result is 
we are fighting the first wars of the 21st century with a 
Department that was fashioned, organized, to meet the 
challenges of the mid-20th century.
    Our legislative proposal, the Defense Transformation Act 
for the 21st Century, would give the Department the needed 
flexibility. Among the provisions in this legislation, many of 
which I admit are controversial, and I know that, we have 
proposed more flexible rules for the flow of money through the 
Department to give us the ability to respond to urgent needs as 
they emerge. We have proposed elimination of some of the more 
onerous regulations that make it difficult or virtually 
impossible for many small businesses to do business with the 
Department of Defense.
    We have proposed expanded authority for competitive 
outsourcing so that we can get military personnel out of non-
military tasks and back into the field. We have proposed 
measures for transforming our system of personnel management so 
that we can gain more flexibility and agility as to how we 
manage the more than 700,000 civilians who provide the 
Department such vital support. We need a performance-based 
promotion system for our civilian work force that rewards 
excellence, just like the one Congress insisted on for the men 
and women in uniform.
    Mr. Chairman and members, transformation, as you know well, 
is not an event; it is not something that starts and then ends. 
It is a process, it is a culture, it is a frame of mind. Our 
goal is to set in motion that process and culture that will 
keep the United States several steps ahead of our potential 
adversaries. To do that, we need not only resources, but 
equally we need flexibility to use those resources with speed 
and agility so we can respond quickly to the new threats that 
we face as this century unfolds.

                           PREPARED STATEMENT

    Mr. Chairman, I thank you for your attention. General Pace 
and Dov Zakheim and I are available to respond to questions, 
unless you have a statement, General Pace.
    [The statement follows:]

                Prepared Statement of Donald H. Rumsfeld

                              INTRODUCTION

    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to update the Committee on our progress in strengthening 
the Department of Defense for the 21st century challenges, and to 
discuss the President's budget request for fiscal year 2004-2009.
    I also want to thank you and the members for your action on the 
President's emergency supplemental request for the global war on 
terror. Your prompt passage of that legislation will help to provide 
for our fighting men and women as they prosecute the global war on 
terror in the weeks and months ahead.
    Our troops are doing a superb job and deserve our thanks for their 
courage and dedication to duty.
    What coalition forces have accomplished in Operation Iraqi Freedom 
is remarkable. They crossed hundreds of miles in Iraq--facing death 
squads and dust storms--to liberate Baghdad in less than a month.
    Today, because of coalition forces' tenacity and skill, the regime 
of Saddam Hussein is no longer--and the Iraqi people are free to 
determine their own destiny.
    Visiting with the troops, I told them that what they accomplished 
will go down in the history books. And it will. But at the Department, 
we cannot afford to wait for history to be written. The threats we face 
in this dangerous new century are emerging, often without warning. We 
need to apply the lessons from the experience in Iraq to transform how 
the Department and the Services organize, train and equip for the 21st 
century.
    The ``lessons learned'' process for Operation Iraqi Freedom is well 
underway. It will likely impact budgets and procedures, training and 
doctrine, and the security of our country for some years to come. But 
even now, while that process is still in its early stages, we can 
already see that the experience in Iraq has validated a number of the 
strategic decisions that were made in our defense reviews over the past 
two years--decisions that drove the development of this 2004 budget.
    Consider a few of those lessons:
    One lesson is that speed matters. Coalition forces pressed through 
Southern Iraq in a matter of weeks, racing towards Baghdad. The enemy 
was unable to mount a coherent defense, use WMD, attack neighboring 
countries with SCUD missiles, destroy oil wells, or blow up dams, 
bridges and infrastructure--in part, we believe--because the coalition 
advance was so fast. This experience highlights the value of 
capabilities that can move quickly into theater and reach targets with 
speed and agility.
    Another is the importance of intelligence--and the ability to act 
on that intelligence rapidly. In Iraq, using ``Time Sensitive Targeting 
Cells,'' the coalition was able to launch attacks on enemy targets, in 
some cases within 20 minutes of receiving the intelligence information. 
Planes taking off for bombing runs on occasion did not receive their 
targeting information until they were in the air and well on their way. 
Ground forces were able to stay ``in contact'' with the enemy forces, 
and attack them with great effect, even as those forces made every 
effort to avoid contact. The success of these efforts in Operation 
Iraqi Freedom validates the recommendation in this budget for increased 
investments in command, control, communications, intelligence, and 
persistent surveillance.
    Another is the importance of precision. The capabilities employed 
in Iraq were discreet. One new weapon used for the first time in Iraq--
a ``thermobaric'' Hellfire missile--can take out the first floor of a 
building without damaging the floors above, and is capable of reaching 
around corners, into niches and behind walls to strike enemy forces 
hiding in caves, bunkers and hardened multi-room complexes. It went 
from development to deployment in less than a year. Coalition military 
planners also used a sophisticated computer model to determine the 
precise direction, angle of attack and type of weapon needed to destroy 
a desired target, while sparing nearby civilian facilities.
    This unprecedented precision allowed the coalition to fight this 
war with unprecedented care--protecting innocent lives while delivering 
devastating damage to the Iraqi regime. There was no refugee crisis 
because Iraqis felt safe to stay in the cities as long as they stayed 
clear of military targets. As a result, the Iraqi people saw that this 
war was being waged not against a country, or a people or a religion, 
but against a regime--and that we were coming not as conquerors but as 
liberators. We believe these experiences support the decision to 
request increases in the 2004 budget for research, development, testing 
and evaluation, and for procurement, as well as the decision to change 
how we develop those new capabilities--by employing ``spiral 
development'' to allow us to bring new weapons to the field in months 
or years instead of decades.
    Another lesson in Iraq was the importance of joint operations. U.S. 
forces did not fight as individual deconflicted services. Instead, they 
fought as a truly joint force. One example is the rescue of Pfc. 
Jessica Lynch--it was made possible by a joint team of Navy SEALs, Army 
Rangers, Marines, and Air Force Special operators--with the help of an 
Iraqi citizen. The joint war fighting experience in Iraq supports the 
request in the 2004 budget to make new investments in joint training 
and in joint war fighting capabilities.
    Another lesson was the critical importance of special operations 
forces. In Iraq, special operators were the first coalition forces to 
hit the ground--some of them before the war formally began--with 
hundreds more pouring into Western Iraq and other regions just before 
the ground invasion--securing airfields, attacking terrorist facilities 
and regime targets, and taking out the regime's capability to launch 
attacks against neighboring countries. These experiences--as well as 
the remarkable performance of special operators in Afghanistan--support 
the decisions to transform the Special Operations Command and to 
request needed new investments in Special Operations in the 2004 
budget.
    There will be other important lessons as we study Operation Iraqi 
Freedom. But the point is this: the 2004 budget was developed with 
warfare of this kind in mind--and the experiences in fighting this war 
have confirmed the decisions made in the defense review which are 
reflected in the budget before the Committee today.
    Mr. Chairman, over the past two years, the senior civilian and 
military leaders of the Department have been working to determine how 
DOD can best transform to meet the changing threats of a new century. 
Together we have:
  --Fashioned a new defense strategy.
  --Replaced the decade-old two Major Theater War approach to sizing 
        our forces with an approach more appropriate for the 21st 
        century.
  --Developed a new approach to balancing risks that takes into account 
        the risks in contingency plans and also the risks to the force, 
        to modernization and to transformation.
  --Reorganized the Department to better focus our space activities.
  --Adopted a new Unified Command Plan, which establishes the new 
        Northern Command to better defend the homeland; a Joint Forces 
        Command that focuses on transformation; and a new Strategic 
        Command responsible for early warning of, and defense against, 
        missile attack and the conduct of long-range attacks.
  --Expanded the mission of the Special Operations Command, so that it 
        cannot only support missions directed by the regional combatant 
        commanders, but also plan and execute its own missions in the 
        global war on terror.
  --Worked with Allies to develop a new NATO command structure and 
        begin the development of a NATO Response Force that must be 
        able to deploy in days and weeks, instead of months.
  --Taken steps to attract and retain needed skills in the Armed 
        Forces, with targeted pay raises and quality of life 
        improvements.
  --Reorganized and revitalized the missile defense research, 
        development and testing program, freed from the constraints of 
        the ABM Treaty.
  --Completed the Nuclear Posture Review, with a new approach to 
        deterrence that will enhance our security, while permitting 
        historic deep reductions in offensive nuclear weapons.
  --Moved from a ``threat-based'' to a ``capabilities-based'' approach 
        to defense planning, focusing not only on who might threaten 
        us, or where, or when--but also on how we might be threatened, 
        and what portfolio of capabilities we will need to deter and 
        defend against those new asymmetric threats.
    These are significant changes. Last year's budget--the 2003 
request--was finalized just as this defense review process was nearing 
completion. So while it included a top-line increase, and made 
important, and long-delayed investments in readiness, people, 
maintenance, and replacement of aging systems and facilities, we were 
only able to begin funding some transforming initiatives as the new 
defense strategy came into focus.
    But this year's budget--the 2004 request before you today--is the 
first to fully reflect the new defense strategies and policies and the 
lessons of the global war on terror.
    Our defense review identified six goals that drive our 
transformation efforts:
  --First, we must be able to defend the U.S. homeland and bases of 
        operation overseas;
  --Second, we must be able to project and sustain forces in distant 
        theaters;
  --Third, we must be able to deny enemies sanctuary;
  --Fourth, we must improve our space capabilities and maintain 
        unhindered access to space;
  --Fifth, we must harness our substantial advantages in information 
        technology to link up different kinds of U.S. forces, so they 
        can fight jointly; and
  --Sixth, we must be able to protect U.S. information networks from 
        attack-and to disable the information networks of our 
        adversaries.
    The President's 2004 budget requests funds for investments that 
will support these transformational goals. For example:
  --For programs to help defend the U.S. homeland and bases of 
        operation overseas--such as missile defense--we are requesting 
        $7.9 billion in the 2004 budget, and $55 billion over the 
        Future Years Defense Program (FYDP).
  --For programs to project and sustain forces in distant theaters--
        such as the new unmanned underwater vehicle program and the 
        Future Combat Systems--we are requesting $8 billion in 2004, 
        and $96 billion over the FYDP.
  --For programs to deny enemies sanctuary--such as unmanned combat 
        aerial vehicles, and the conversion of SSBN to SSGN 
        submarines--we are requesting $5.2 billion in 2004 and $49 
        billion over the FYDP.
  --For programs to enhance U.S. space capabilities--such as Space 
        Control Systems--we are requesting $300 million in 2004 and $5 
        billion over the FYDP.
  --For programs to harness our advantages in information technology--
        such as laser satellite communications, Joint Tactical Radio, 
        and the Deployable Joint Command and Control System--we are 
        requesting $2.7 billion in 2004 and $28 billion over the FYDP.
  --For programs to protect U.S. information networks and attack those 
        of our adversaries--such as the Air and Space Operations 
        Center--we are requesting $200 million in 2004 and $6 billion 
        over the FYDP.
    Over the next six years, we have proposed a 30 percent increase in 
procurement funding and a 65 percent increase in funding for research, 
development, testing and evaluation (RDT&E) above the 2002 baseline 
budget--an investment of roughly $150 billion annually.
    In addition to these increases, RDT&E spending will rise from 36 
percent to 42 percent of the overall investment budget. This shift 
reflects a decision to accept some near-term risk in order to 
accelerate the development of needed next generation systems.
    Among the more important transformational investments we propose is 
a request for funds to establish a new Joint National Training 
Capability. As we saw in Iraq, wars in the 21st century will be fought 
jointly. Yet too often our forces still train and prepare for war as 
individual services. That needs to change.
    To ensure that U.S. forces train like they fight and fight like 
they train, we have budgeted $1.8 billion over the next six years to 
fund range improvements and permit more of both live and virtual joint 
training--an annual investment of $300 million.
    The total investment in transforming military capabilities in the 
2004 request is $24.3 billion, and about $240 billion over the FYDP.
    We propose not only transforming the capabilities at our disposal, 
but also the way we develop new capabilities. The old way was to 
develop a picture of the perfect system, and then build the system to 
meet that vision of perfection, however long it took or cost. The 
result was that, as technology advanced, and with it dreams of what a 
perfect system could do, capabilities were taking longer and longer to 
develop and the cost of systems increased again and again--Time is 
money.
    A different approach is to start with the basics, simpler items, 
and roll out early models faster--and then add capabilities to the 
basic system as they become available. This is what the private sector 
does--companies bring a new car or aircraft on line, for example, and 
then update it over a period of years with new designs and 
technologies. We need to do the same.
    Take, for example, the approach to ballistic missile defense. 
Instead of taking a decade or more to develop someone's vision of a 
``perfect'' shield, we have instead decided to develop and put in place 
a rudimentary system by 2004--one which should make us somewhat safer 
than we are now--and then build on that foundation with increasingly 
effective capabilities as the technologies mature.
    We intend to apply this ``spiral development'' approach to a number 
of systems, restructured programs and new starts alike over the course 
of the FYDP. The result should be that new capabilities will be 
available faster, so we can better respond to fast moving adversaries 
and newly emerging threats.

                             BALANCING RISK

    Even as we accept some increased near-term risk so we can prepare 
for the future, this budget also recognizes that new and unexpected 
dangers will likely be waiting just over the horizon--and that we must 
be flexible to face them.
    That is why the 2004 budget requests increased investments in 
critical areas such as: readiness, quality of life improvements for the 
men and women in uniform, and to make certain existing capabilities are 
properly maintained and replenished.
    Over the next six years, the President has requested a 15 percent 
increase for Military Personnel accounts, above the 2002 baseline 
budget, and an increase in funding for family housing by 10 percent 
over the same period. The 2004 budget includes $1 billion for targeted 
military pay raises, ranging from 2 percent to 6.25 percent. Out of 
pocket expenses for those living in private housing drop from 7.5 
percent to 3.5 percent in 2004, and are on a path to total elimination 
by 2005.
    Over the next six years, we have requested a 20 percent increase 
for Operations and Maintenance accounts above the 2002 baseline budget. 
We have proposed $40 billion for readiness of all the services and $6 
billion for facilities sustainment over the same period.
    These investments should stabilize funding for training, spares and 
OPTEMPO, and put a stop to the past practice of raiding the investment 
accounts to pay for the immediate operations and maintenance needs, so 
we stop robbing the future to pay today's urgent bills.
    In our 2004 request:
  --We increased the shipbuilding budget by $2.7 billion, making good 
        on our hope last year that we could increase shipbuilding from 
        five to seven ships.
  --We increased the Special Operations budget by $1.5 billion, to pay 
        for equipment lost in the global war on terror and for an 
        additional 1,890 personnel.
  --We increased military and civilian pay by $3.7 billion.
  --We increased missile defense by $1.5 billion, including increased 
        funds for research and development of promising new 
        technologies, and to deploy a small number of interceptors 
        beginning in 2004.
    The President has asked Congress for a total of $379.9 billion for 
fiscal year 2004--a $15.3 billion increase over last year's budget. 
That is a large amount of the taxpayers' hard-earned money. But even 
that increase only moves us part of the way.
    Our challenge is to do three difficult things at once:
  --Win the global war on terror;
  --Prepare for the threats we will face later this decade; and
  --Continue transforming for the threats we will face in 2010 and 
        beyond.
    Any one of those challenges is difficult--and expensive. Taking on 
all three, as we must, required us to make tough choices between 
competing demands--which meant that, inevitably, some desirable 
capabilities do not get funded. For example:
  --Despite the significant increase in shipbuilding, we did not get 
        the shipbuilding rate up to the desired steady state of 10 
        ships per year. Because of planned retirements of other ships, 
        we will drop below a 300-ship fleet during the course of the 
        FYDP. The Navy is in the process of transforming, and has two 
        studies underway for amphibious ships and for submarines--we 
        have increased shipbuilding in 2004, but we do not want to lock 
        ourselves into a shipbuilding program now until we know 
        precisely which ships we will want to build in the out-years.
  --We have not been able to modernize our tactical air forces fast 
        enough to reduce the average age of our aircraft fleet.
  --We have had to delay elimination of all inadequate family housing 
        by 2007--though we got close!
  --We have not fully resolved our so-called ``high-demand/low 
        density'' problems--systems like JSTARS, which, because they 
        have been chronically under funded in the past, will still be 
        in short supply in this budget.
  --We opted not to modernize a number of legacy programs--taking on 
        some near-term risks to fund transforming capabilities we will 
        need in this fast moving world.
  --We did not achieve the level of growth in the Science and 
        Technology (S&T) accounts we had hoped for. Our request is 
        $10.2 billion, or 2.69 percent of the 2004 budget.
  --We have delayed investments to completely fix the recapitalization 
        rate for DOD infrastructure. We still intend to get the rate 
        down from 148 years to 67 years by 2008, and we expect to 
        accelerate facilities investments in 2006 after we have made 
        the needed decisions with respect to the appropriate base 
        structure, at home and abroad. We are reviewing our worldwide 
        base structure, and starting the steps to prepare for the 2005 
        BRAC. We want to think carefully about how best to match our 
        base structure and force structure.
    That's the bad news. But there is good news as well. In making 
those difficult decisions, we believe we made better choices this year 
because we followed the new approach to balancing risks that we 
developed in last year's defense review--an approach that takes into 
account not just the risks in operations and contingency plans, but 
also the risks to our force--the people, and risks to modernization and 
to the future--risks that, in the past, often had been crowded out by 
more immediate pressing demands. The result, we believe, is a more 
balanced approach and a more coherent program.
    To help free resources, the services have stepped up, and will be 
canceling, slowing or restructuring a number of programs so they can 
invest those savings in transforming capabilities. For example:
  --The Army came up with savings of some $22 billion over the six-year 
        FYDP, by terminating 24 systems, including Crusader, the 
        Bradley A3 and Abrams upgrades and reducing or restructuring 
        another 24, including Medium Tactical Vehicles. The Army used 
        these savings to help pay for new transformational 
        capabilities, such as the Future Combat Systems.
  --The Navy reallocated nearly $39 billion over the FYDP, by retiring 
        26 ships and 259 aircraft, and merging the Navy & Marine air 
        forces. They invested these savings in new ship designs and 
        aircraft.
  --The Air Force shifted funds and changed its business practices to 
        account for nearly $21 billion over the FYDP. It will retire 
        114 fighter and 115 mobility/tanker aircraft. The savings will 
        be invested in readiness, people, modernization and new system 
        starts and cutting edge systems like unmanned aerial vehicles 
        (UAVs) and unmanned combat aerial vehicles (UCAVs).
    In all, by retiring or restructuring less urgent programs, we 
believe we can achieve savings of some $80 billion over the FYDP--money 
that will be reinvested by the services in capabilities for the 21st 
century.
    We feel a deep obligation to not waste the taxpayers' dollars. We 
need to show the taxpayers that we are willing to stop doing things 
that we don't need to be doing, and take that money and put it into 
investments we do need.
    As you consider this budget, I am sure you will hear pleading for a 
number of programs--and plausible arguments for why this or that 
program should be saved or funded at a higher rate. I suspect some may 
disagree with decisions that have been made, and may want to make 
changes in this budget proposal. As a former Member of Congress, I 
recognize that the Congress is Article 1 of the Constitution--the 
President proposes and Congress disposes. But it is also important 
that, as the Committee considers potential changes, it recognizes that 
this budget has been crafted to balance a number of risks. And with 
every change, that balance of risks is affected.
    This is not to suggest that the budget before you is perfect--no 
one has a monopoly on wisdom. And there are numerous examples of 
instances when Congress pressed the executive branch to invest in 
programs--such as JSTARS and UAVs--that later proved critical. What I 
am suggesting is that if changes are made, they be made in a coherent 
way--that we talk them through, and that the decisions be made with a 
full understanding of the effects they may have--not only on the 
program in question, but the costs in terms of the investments in other 
areas that will be put off as a result.
    We have done our best to develop this budget with what we believe 
has been unprecedented transparency--providing detailed briefings to 
those interested in defense here on Capitol Hill. Congress was not 
simply presented with the President's budget--it was kept in the loop 
as decisions were being made. I am told that the extent of consultation 
from the Defense Department to the Congress this year has been 
unprecedented. We hope that this spirit of openness and cooperation 
will continue as Congress deliberates--so that the final budget is 
crafted in a way that preserves the balance of risks.
    Our hope is that, with this budget, we can further transform not 
only our military capabilities, but also the relationship between the 
Defense Department and the Congress--by establishing a new spirit of 
trust and cooperation.

                                RESULTS

    As a result of these strategic investments and decisions, we can 
now see the effects of transforming begin to unfold. Consider just some 
of the changes that are taking place:
  --Today, the missile defense research, development and testing 
        program has been revitalized and we are on track for limited 
        land/sea deployment in 2004-05.
  --Today, the Space Based Radar, which will help provide near-
        persistent 24/7/365 coverage of the globe, is scheduled to be 
        ready in 2012.
  --In this budget, we believe SBIRS-High is properly funded.
  --Today, we are converting 4 Trident SSBN subs into conventional 
        SSGNs, capable of delivering special forces and cruise missiles 
        to denied areas.
  --Today, we are proposing to build the CVN-21 aircraft carrier in 
        2007, which will include many new capabilities that were 
        previously scheduled to be introduced only in 2011.
  --Today, instead of 1 UCAV program in development, the X-45, which 
        was designed for a limited mission of suppression of enemy air 
        defense, we have set up competition among a number of programs 
        that should produce UCAVs able to conduct a broad range of 
        missions.
  --Today, we are revitalizing the B-1 fleet by reducing its size and 
        using savings to modernize remaining aircraft with precision 
        weapons, self-protection systems, and reliability upgrades--and 
        thanks to these efforts, we are told the B-1 now has the 
        highest mission capable rates in the history of the program.
  --Today, in place of the Crusader, the Army is building a new family 
        of precision artillery--including precision munitions and Non-
        Line-of-Sight Cannon for the Future Combat Systems.
  --Today, we have seen targeted pay raises and other reforms help 
        retain mid-career officers and NCOs, so that fewer of them 
        leave the service while still in their prime, so the country 
        can continue to benefit from their talent and experience.
    These are positive changes that will ensure that our country will 
have the capabilities needed to defend our people, as well as a menu of 
choices from which we can select to shape the direction of the 
Department, as the 21st century security environment continues to 
change and evolve.

                       DEFENSE TRANSFORMATION ACT

    Finally, Mr. Chairman, we can't truly transform, unless we have the 
ability to better manage this Department. To win the global war on 
terror, our forces need to be flexible, light and agile--so they can 
respond quickly to sudden changes. The same is true of the men and 
women who support them in the Department of Defense. They also need 
flexibility--so they can move money, shift people, and design and buy 
new weapons more rapidly, and respond to the continuing changes in our 
security environment.
    Today, we do not have that kind of agility. In an age when 
terrorists move information at the speed of an email, money at the 
speed of a wire transfer, and people at the speed of a commercial 
jetliner, the Defense Department is bogged down in the bureaucratic 
processes of the industrial age--not the information age.
    Some of our difficulties are self-imposed by the Department, to be 
sure. Others, however, are the result of law and regulation. Together 
they have created a culture that too often stifles innovation. Consider 
just a few of the obstacles we face each day:
  --This department spends an average of $42 million an hour, and yet 
        we are not allowed to move $15 million from one account to 
        another without getting permission from four to six committees, 
        a process that sometimes takes months.
  --Instead of being streamlined for the fast-paced 21st century, the 
        defense authorization bill has grown with each passing year. 
        Just consider the changes over my brief career:
    --When I was first elected to Congress in 1962, the defense 
            authorization bill was one page.
    --The last time I was Secretary of Defense, a quarter of a century 
            ago, the 1977 authorization bill had grown to 16 pages.
    --When I came back to the Pentagon for this second tour, the 2001 
            authorization bill had grown to 534 pages.
    --I can't even imagine what it will look like in another 25 years.
  --Today we have some 320,000 uniformed people doing what are 
        essentially non-military jobs. And yet we are calling up 
        Reserves to help deal with the global war on terror. The 
        inability to put civilians in hundreds of thousands of jobs 
        that do not need to be performed by men and women in uniform 
        puts unnecessary strain on our uniformed personnel and added 
        cost to the taxpayers. This has to be fixed.
  --The department is required to prepare and submit some 26,000 pages 
        of justification, and over 800 required reports to Congress 
        each year--many of marginal value, I am sure many not read, 
        consuming hundreds of thousands of man hours to develop, and 
        untold number of trees destroyed.
  --Despite 128 acquisition reform studies, we have a system in the 
        Defense Department that since 1975 has doubled the time it 
        takes to produce a new weapons system, in an era when new 
        technologies are arriving in years and months, not decades.
    The point is this: we are fighting the first wars of the 21st 
century with a Defense Department that was fashioned to meet the 
challenges of the mid-20th century. We have an industrial age 
organization, yet we are living in an information age world, where new 
threats emerge suddenly, often without warning, to surprise us. We 
cannot afford not to change and rapidly, if we hope to live 
successfully in this new world.
    The Department is already engaged in substantial transformation. We 
have reduced management and headquarters staffs by 11 percent. We have 
streamlined the acquisition process by eliminating hundreds of pages of 
unnecessary rules and self-imposed red tape. And we have begun 
implementing a new business management structure. These internal 
changes are important--but they are not enough. We also need 
legislative relief.
    Our legislative proposal, the Defense Transformation Act for the 
21st Century, would give the Department some of the needed flexibility, 
and ability to more rapidly move resources, shift people and bring new 
weapons systems on line more quickly, so we can adapt to changing 
events.
    Among the provisions in this legislation:
  --We have proposed more flexible rules for the flow of money through 
        the Department to give us the ability to respond to urgent 
        needs as they emerge.
  --We have proposed elimination of some of the more onerous 
        regulations that make it difficult or virtually impossible for 
        many small businesses to do business with the Department of 
        Defense.
  --We have proposed expanded authority for competitive outsourcing so 
        that we can get military personnel out of non-military tasks 
        and back into the field.
  --We have proposed measures that would protect our military training 
        ranges so that our men and women will be able to continue to 
        train as they fight while honoring our steadfast commitment to 
        protecting the environment.
  --We have proposed measures for transforming our system of personnel 
        management, so that we can gain more flexibility and agility in 
        how we manage the more than 700,000 civilians who provide the 
        Department such vital support. We need a performance-based 
        promotion system for our civilian workforce that rewards 
        excellence--just like the one Congress insisted on for our men 
        and women in uniform.
    In other U.S. government agencies, major portions of the national 
workforce have already been freed from archaic rules and regulations. 
We need similar relief. If the Department of Defense is to prepare for 
the security challenges of 21st century, we must transform not just our 
defense strategies, our military capabilities, and the way we deter and 
defend, but also the way we conduct our daily business.
    Transformation is not an event--it is a process. There is no point 
at which the Defense Department will move from being ``untransformed'' 
to ``transformed.'' Our goal is to set in motion a process and a 
culture that will keep the United States several steps ahead of 
potential adversaries.
    To do that we need not only resources, but equally, we need the 
flexibility to use them with speed and agility, so we can respond 
quickly to the new threats we will face as this century unfolds.
    Thank you Mr. Chairman. I'd be happy to respond to questions.

    General Pace. Sir, I do not have a statement, but I would 
be remiss, Mr. Chairman, if I did not point out that the 
incredible performance of your armed forces in battle in Iraq 
is directly attributable to the Goldwater-Nichols Act and the 
sustained bipartisan support of the Congress. We deeply 
appreciate that, sir.
    If I may have the temerity to ask to put into the record 
that our thoughts and prayers are with the families of all 
those who lost their loved ones in this battle, sir. Thank you.
    Senator Stevens. Dr. Zakheim, do you have a comment?
    Dr. Zakheim. No, I don't. I am ready to take questions as 
they come in.
    Senator Stevens. Mr. Secretary, many of the things you 
addressed are really pending before the Armed Services 
Committee. I hope we will address questions before this 
committee that pertain to the budget that has been presented, 
and I would ask Senators to limit themselves to 7 minutes in 
the first round to see how well we can do. We may not get 
through them all in the time that is allotted to us today.
    Mr. Secretary, much of what you said is correct and I think 
we all stand in awe of this generation and what they have done. 
I have often compared this generation to the generation that 
Senator Inouye and I and Senator Hollings were part of, that 
some people call ``the greatest generation.'' But most of our 
people were draftees. The people you have dealt with now are 
volunteers, people that place themselves in harm's way on the 
basis of their own decisions, and I think they are the finest 
military force the world has ever seen.

            VISITING TROOPS IN THE FIELD AND TANKER LEASING

    We are all proud of them, very proud of them, and want to 
do everything we can to assist you to see to it that we 
maintain that force as we go out into the future. Having said 
that, though, I do express again our sadness that we are not 
able to go visit the war zone. We have done that on every 
occasion. I remember when Senator Bellmon and I went into 
Vietnam two or three times. We were under attack and bombed and 
shelled and everything else. We never asked for special 
protection. But in this instance we have been denied so far the 
opportunity to see Iraq.
    I hope that those restrictions will be lifted in the near 
future. I do not ask for any commitment; just I do express that 
hope.
    One of the things that continues to bother me as a former 
cargo plane pilot is the status of the tankers. They now 
average more than 45 years in age. At least one third of them 
are in the depots for repair. It was suggested to me the other 
day that I should ask you and Mitch Daniels to join some of us 
here and go out to Tinker and take a look at those planes that 
we are trying to repair. Even after we put them through a year 
of repair, they are still unfit for service. They still have 
rust and every kind of deterioration in terms of their 
structural capability, and yet we are insisting on putting them 
back out and putting money into them to try and make them fly 
some more, when they average 44 years of age.
    Now, Mr. Secretary, we provided several times now for the 
funds to start a tanker leasing program. I know--I hope that 
you are going to be able to tell us what is going to happen to 
that program now.
    Secretary Rumsfeld. Mr. Chairman, first let me say that I 
believe it is very important that members of the House and the 
Senate who are on relevant committees and interested have 
opportunities to visit the men and women in uniform and to 
observe first-hand and fulfil their responsibilities, their 
oversight responsibilities.
    I have talked to General Franks about this. We have worked 
out what we believe is an appropriate arrangement with the 
Speaker of the House and with the leadership in the Senate and 
there certainly will be an opportunity for you and your 
associates to be able to go to Iraq and Afghanistan in the 
period ahead.
    Second, with respect to the tanker issue, everything you 
have said, sir, is clearly correct. The tanker fleet is old. It 
has to be replaced. It will be replaced. The lease-buy issue is 
one that the Department has been wrestling with for some time 
and I regret to say still is. We are plowing new ground here. 
It is not something that the Department has done in the past to 
any great extent. It certainly will be precedent-setting.
    I felt it required appropriately a look by an outside 
entity and asked one to make a study of it. That report is 
back. The sheer size of this leasing proposal that was pending 
is something like 125 pages, with 80 different clauses, and it 
is not something that can be done quickly or easily, nor is it 
something that should take as much time as it has taken.
    You are right about the corrosion, you are right about the 
need for replacement, and certainly the Department will be 
pressing for a conclusion with respect to it. One of the things 
that is taking place, I am told, at the present time by those 
folks working on it--and you may want to comment, Dov--is they 
are still trying to negotiate a better price, and there is some 
active debate about what the appropriate price ought to be.
    Senator Stevens. Well, Mr. Secretary, I only have 5 
minutes. I can only say this: We suggested that leasing 
proposition when we came back from Afghanistan after talking to 
tanker pilots who expressed to us their fear of flying those 
planes. That is almost 2\1/2\ years ago, I think. That is 2 
years ago, at least.
    I think we ought to put some of the people who are holding 
this up in those tankers and let them fly a little bit and see 
them and listen to them clank, creak. This delay is 
unconscionable as far as I am concerned. I hope we can find 
some way.
    Again, I urge you, I ask you. We will get one of your 
planes and fly down there next week and just take the people 
from the Office of Management and Budget (OMB) that are holding 
this up and let them see those planes, because if they see them 
and understand the concept of really metal fatigue and the 
whole concept of rust and what that means to these people that 
are flying them, the idea of putting money into them so they 
can go out there and fly again for another 20 years is just 
absurd.

                SUFFICIENT FUNDING FOR FISCAL YEAR 2003

    I have got one other question to ask and I would like to 
get down to the money if I can. I want to ask particularly 
because of the problems we face now. We passed the Iraq 
supplemental in record time; and that was based mostly on cost 
models and upon operational assumptions. I would like to know, 
do you have enough money to finish this year, fiscal year 2003? 
Are we going to be able to see through the remainder of 
operations in Afghanistan and Iraq with the money we have 
provided you?
    Secretary Rumsfeld. I guess it is now May 14th. The fiscal 
year ends October 1st. We still have a number of months in 
fiscal year 2003. I can say that I have not seen anything at 
the moment that persuades me that we will necessarily have to 
come back for an additional supplemental in 2003. Is that----
    Dr. Zakheim. That is right. As things now stand, it 
actually looks that the target which we submitted and that the 
Congress gave us is pretty accurate. We are reviewing the 
spending rates very carefully. We have 4\1/2\ months to go in 
this fiscal year. We have already released over $30 billion out 
of the supplemental, with more to come. But it is looking like 
we are pretty much on target, sir.
    Senator Stevens. Thank you very much.
    Senator Inouye.

                 PASSAGE OF DEFENSE TRANSFORMATION ACT

    Senator Inouye. Mr. Secretary, the Defense Transformation 
Act that you discussed in the closing moments is before the 
Senate authorizing committee. I gather that the chances of 
passage do not look so well.
    Secretary Rumsfeld. I cannot hear you very well, sir.
    Senator Inouye. If the details of that legislation are not 
incorporated in the defense authorization bill, how would it 
affect your program?
    Secretary Rumsfeld. Let me make a couple of comments and 
then have Dov make a couple of comments. One, I am told that we 
have 300,000, 320,000 to be precise, men and women in uniform 
doing jobs that are not jobs for men and women in uniform. They 
are jobs that should be done by civilians. They are jobs that 
should be done by contractors.
    And we are doing that because people are rational. We have 
got three choices in the Department. We can either use someone 
in uniform, who you can manage; or you can use a contractor, 
who you can manage; or you can use the civil service, which is 
very, very difficult to manage. So people do the logical thing. 
They go and put a military person into a job that is not a 
military job.
    Well, we are worried about the OPTEMPO. We are worried 
about the fact that we have had to call up Guard and Reserve. 
We are worried about the fact that we have had to have stop-
losses and we would prefer to have fewer stop-losses and fewer 
Guard and Reserve activated and have them activated a fewer 
number of times and be more respectful of their lives.
    But with 320,000 military people doing civilian jobs, why? 
Simply because the rules are so difficult, they are so 
burdensome.
    A second example: We cannot hire people right out of 
school. It is almost impossible. Everyone else--a company can 
go over and go to a job fair at a college, they can walk in and 
offer someone a job. We cannot. It takes months to work through 
all the paperwork, all the civil service requirements.
    Now, we have had a bunch of experiments going on at China 
Lake and other places through authorities that Congress gave us 
and they have worked. They have done a good job. China Lake is 
one of them.
    In my view we need some flexibility to manage the 
Department and we are wasting taxpayers' dollars because of the 
absence of that flexibility in my view.

                            STRYKER BRIGADES

    Senator Inouye. Mr. Secretary, everyone agrees that our 
military must transform. The Army has taken the lead with the 
creation of the Stryker Brigades. This year the Army testified 
that it needs six brigades. Do you support this?
    Secretary Rumsfeld. We have supported it by putting in the 
budget the money for all six Stryker Brigades. As I recall, the 
decision that was made was to--the first three are already 
funded and in route. The next one has been funded and approved, 
as I understand it. Correct me, Dov, if I am wrong.
    Dr. Zakheim. That is right.
    Secretary Rumsfeld. And the next two will be subject to a 
discussion as to the Army coming back and discussing ways they 
think they might improve or strengthen the Stryker model for 
the fifth and sixth.
    Dr. Zakheim. I could add to that if I may. The first 
brigade is actually undergoing a Congressionally mandated 
evaluation at Fort Polk, Louisiana, for its operational 
effectiveness. The second one is being fielded. It is at Fort 
Lewis. The team is being fielded with the Stryker vehicles. The 
Army's plan will be presented in July, so it is coming 
relatively soon.
    Senator Inouye. I gather that advance drafts of that plan 
have been distributed and they seem to support the fifth and 
sixth brigades; is that correct?
    Dr. Zakheim. The funding for all of them is in the plan and 
it will be for the Secretary of Defense to decide when he looks 
at the Army's plan as to how and in what way the Stryker is 
being improved.

                                 LPD-17

    Senator Inouye. Mr. Secretary, if I still have time, the 
Navy's LPD-17 has had some problems, cost overruns and schedule 
slippage. What are your plans for this program?
    Secretary Rumsfeld. Do you have that?
    Dr. Zakheim. Yes, I do.
    Secretary Rumsfeld. Do you want to comment on it?
    Dr. Zakheim. Sure.
    As you know, we essentially are gapping, as it were, not 
funding an LPD-17 in fiscal year 2005. We will have two LPD-17s 
in fiscal year 2006. We believe that the shipbuilding 
industrial base can support the production gap.
    In addition, we are talking about a move from these sorts 
of ships to a new kind of maritime prepositioning ship, which 
is also in the outyears. We are going to evaluate how that 
transition will take place. So the line remains open, we are 
funding those ships, the LPD-17, but at the same time as part 
of our overall transformation we are looking at this new kind 
of prepositioning ship.
    Senator Inouye. What sort of ship is that?
    Dr. Zakheim. They are looking at designs right now. The 
concept is to incorporate some of the elements of the 
amphibious type LPD-17, which simply stands for ``Landing 
Platform Dock ship,'' but in addition to take account of the 
prepositioning needs that were demonstrated again in Iraqi 
Freedom as well as Enduring Freedom before it.
    Senator Inouye. Has this type of ship served its purpose 
and does it continue to do so?
    Dr. Zakheim. There is a sense on the part of the Marine 
Corps and the Navy that for future requirements you may need 
considerably more flexibility than the LPD-17 gives you. Again, 
by definition in funding one in 2004 and two more in 2006 you 
are committed to those ships for 30-odd years beyond. So it is 
not a question of those ships being useless or anything. The 
real issue is when you go past those do you want to have a 
further flexible capability than what they give you, and there 
seems to be a consensus that the answer is yes and they are 
looking at just how to design it.
    Secretary Rumsfeld. And the Navy Department and the Chief 
of Naval Operations and the Secretary of the Navy have been 
reviewing that as part of a broader look at the shipbuilding 
budgets generally.
    General Pace. And there is no backing off at all, sir, from 
the requirement to be able to project combat power from ship to 
shore. But as Admiral Clark and General Hagee and General Jones 
before General Hagee have looked at this, and in looking at the 
opportunities presented by the Joint Strike Fighter and the 
Osprey and the potential adding of a flight deck of some 
limited capability to the prepositioning ships, that opens up a 
whole new horizon and they want to make sure that the 
recommendations they give to the Secretary and the money that 
is spent is spent on the most capable ship in the future.
    Dr. Zakheim. Let me also add that we will continue to buy 
these ships through fiscal year 2010, which again is an 
indication that we are not giving up on a ship like this.
    Senator Stevens. We are running out of time.
    Dr. Zakheim. Sorry.
    Senator Stevens. Thank you, Mr. Secretary.
    Senator Burns.
    Senator Burns. Thank you, Mr. Chairman.
    I just have a question and maybe a thought, Mr. Secretary, 
this morning. As we have seen in the operation in Iraq, it was 
pretty evident that the technology and the training that we had 
done prior to that operation really paid off. I am told that 
your ability through communications, the ability of systems 
that were interoperable, that it gives the striking force a lot 
of flexibility even before the operation started and during the 
operation, that any mission could be changed.
    There is no doubt about it that it was a force--we had the 
most physically fit and I think mentally alert military this 
Nation has ever known and really people that understand 
technology and know how to use it. We are also seeing in this 
country as we train for the force that you visualize that will 
be our force of the future, we are also seeing our ability to 
train both in the air space and land-based facilities for our 
troops and our equipment, we see that being eroded due to 
encroachment, environmental laws, and a variety of other 
challenges that we have in front of us.
    I would wonder. You will be making the decisions of what 
kind of facilities and what we are going to need to train for 
the future and make that assessment, and then probably would 
start dealing with those challenges ahead. Can you tell us if 
there is a process in place now where you are making those 
determinations based on what we have experienced in the Middle 
East, and at such time as when Congress will be advised or 
assessed of what your needs will be in the future areas of 
training and new technologies?

                     TRAINING RANGES AND FACILITIES

    Secretary Rumsfeld. Senator, thank you. You are right that 
the armed forces of the United States are living in the world 
and they have training ranges and facilities, and as the 
world's rules and requirements change and evolve the 
restrictions grow and the ability to function is limited. We 
currently have proposals in the transformation legislation 
before the Congress that would provide some relief from some of 
the laws that are hampering defense training and that type of 
activity.
    For example, we have been delayed over 6 years in 
deployment of a surveillance towed array sensor system, low-
frequency active sonar system, which is needed against ultra-
quiet diesel submarines. It is part of the Marine Mammal Act. 
We proposed last year several adjustments. They tend not to 
really be directed at any of the laws that exist, but rather at 
the legal interpretations that have evolved over the decades 
since those laws were passed that we feel we need some freedom 
from.
    Do you want to comment, Pete, on this?
    General Pace. Sir, thank you.
    Senator, we want to be good stewards of the environment and 
we believe that we can do both, be good stewards of the 
environment and train. One of the provisions is for this 
National Training Center that will be both live fire 
environments, such as TwentyNine Palms and the National 
Training Center and Nellis Air Force Base, and the virtual 
environment, that you can pull together people from throughout 
the entire Nation without having to move anywhere to do a very, 
very robust exercise.
    We are looking at that, sir. We do have a process we are 
working through the Defense Department to highlight those 
things that are current constraints, but also to be able to 
project ways that we can protect the environment and train.
    Senator Burns. Well, General Pace, you know as well as 
anyone else that Camp Pendleton, parts of Camp Pendleton have 
come under fire, that we cannot train in that we used to use 
many years ago, or even in modern day, your training out there. 
That sort of concerns us.
    We look at air space use, especially in the southwestern 
part of the country, where you have a lot of commercial 
flights, where we see a restricting of air space both in the 
space and altitude in which we can train. And I an wondering if 
those assessments are not going on now, that we will be able to 
be sharp as we were in this 21 days in the Iraqi operation. If 
we cannot train and we cannot train under conditions like we 
are going to have to fight, then I worry about those kind of 
conditions.
    We can talk about equipment, we can talk about money and 
that, but if we cannot train our troops that is something that 
we have got to look at very seriously. I would also add that 
maybe my home State of Montana might have something to offer--
strictly parochial.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you very much.
    Senator Byrd? Senator Hollings?
    Senator Hollings. Thank you very much, Mr. Chairman.
    Mr. Secretary, that is an outstanding statement and I 
congratulate you on bringing Defense into the new century. What 
happens--and the reason I take the committee's time here to ask 
about this little installation down in Charleston, back in 1992 
at the Base Realignment and Closure Commission there was one 
thing that both George Bush Senior and Clinton could agree on 
and that was we are not going to close the Portsmouth Navy 
Yard. I mean, we got the run-up there in that primary.
    So they closed Charleston, which had won all the NAVALEX 
and everything else. But at the time I debated and argued to 
have NAVALEX, that you would remember as the former Secretary 
back in the 1970s, and NAVALEX was combined into SPAWAR. They 
combined Pawtucket, Maryland, Nebraska Avenue where Secretary 
Ridge is right now on Nebraska Avenue, Norfolk, and Charleston.
    The reason for the question, of course, or comment is an 
admiral now has asked for a study to find about the cost of 
moving it. I hope we get that study, because the Secretary of 
the Navy has just completed a cost efficiency study by Booz-
Allen-Hamilton of 15 navy engineering centers and they found 
that the SPAWAR facility down in Charleston was ranked number 
one in overall efficiency.
    We do not receive appropriated funds. What we do is we 
design, build, test, and support computer, command and control 
systems. There are a bunch of little small contractors, and 
since the big Navy yard was closed the rent is cheap. They love 
it down there and they have got room to move and expand, and 
they serve Army, Navy, Air, Marines, but they serve the White 
House, the Secret Service, the Federal Aviation Administration 
(FAA), and everything else. It is all contract. It has the 
joint use that Secretary Rumsfeld is insisting on.
    If you could come visit us down there, you will see it, and 
I think you can use that as an example of succeeding in this 
joint use effort.
    Otherwise, Mr. Secretary, with respect to rebuilding Iraq, 
do you look upon that as a military or a contract operation?

                            REBUILDING IRAQ

    Secretary Rumsfeld. Well, I think I would rather say what I 
think of it as, rather than either-or. First of all, I think it 
is ultimately a task for the Iraqi people. I do not think 
anyone can rebuild another country for a person. It is up to 
them to do that. They are going to have to invest their time 
and their energy and their funds in seeing that that country 
rebuilds after decades of leadership by a vicious despot who 
did not invest in the people, did not invest in the 
infrastructure. He was building palaces and building weapons 
and putting money in his own accounts outside the country.
    So it is going to take some time. It is probably, second, 
going to be a task for the international community to create--
to help the Iraqi people do what needs to be done. It will take 
time.
    Third, I do not think it can be done unless the country is 
in a reasonably secure and permissive environment, and that is 
what we need to help with.
    Senator Hollings. That is the main point. It has got to 
start off military, because you must establish law and order. 
Even after law and order is established, I look upon it and 
remember the countries of Greece and Portugal coming into the 
Common Market and the others, Germany, Italy, and all, taxed 
themselves $5 billion over 5 years so they could develop the 
entities of free speech, free press, a respected judiciary, 
property ownership, and all those kind of things, but first 
thing was to establish law and order.
    Otherwise, if you begin with the people and the people 
themselves doing it, I agree with you generally, if you allow 
that you are going to end up with an Islamic democracy. It will 
be quite some time before we get one man, one vote in downtown 
Baghdad, and the military is going to have to establish order. 
I had this experience with all of the demonstrations and 
everything else: Salus populi suprema lex, the safety of the 
people is the supreme law.
    When you have got all kind of entities demonstrating, 
looting, stealing, and everything else of that kind, you have 
got to establish the safety of the people.
    Secretary Rumsfeld. You are absolutely right. Unless it is 
a reasonably secure environment, nothing else happens.
    Senator Hollings. Right.
    Secretary Rumsfeld. It just does not work.
    Senator Hollings. Thank you, Mr. Chairman.
    Senator Stevens. Yes, sir, thank you very much.
    Senator Shelby.

                         IMPROVING INTELLIGENCE

    Senator Shelby. Thank you, Mr. Chairman.
    Secretary Rumsfeld, I want to first talk a little about 
intelligence community cooperation, DOD with the intelligence 
community. Could you give us a little analysis of how far the 
Department, that is the Department of Defense, has come since 
September 11th in improving your own intelligence capabilities 
and cooperating with other intelligence agencies, and what this 
budget would do to continue that work?
    Secretary Rumsfeld. Well, let me answer the second part 
first, the cooperation. I suppose nothing is ever perfect in 
life. We are all human beings and we are not perfect. On the 
other hand, having been in and around government for a lot of 
decades, I honestly believe that the linkages between the 
Director of Central Intelligence and Central Intelligence 
Agency and the intelligence agencies that reside in the 
Department of Defense and the combatant commanders is I would 
say better than ever in my knowledge.
    It is--I meet with George Tenet probably several times a 
week, but we have lunch once a week, and we have been able to 
knit it together at the top. General Franks was able to do that 
in the region and is currently doing it in Iraq. It is almost 
not quite seamless between the two.
    Senator Shelby. It is better than it has been, is it not?
    Secretary Rumsfeld. Absolutely, absolutely.
    Senator Shelby. Thank you.
    Secretary Rumsfeld. And we work hard at it, and I think it 
is much better.
    How much progress are we making generally in the 
intelligence community? That is a tougher question. I think 
time will tell. We are doing some big things. As we rewrite war 
plans and contingency plans and think of them in the 21st 
century with the changed circumstances, there are things that 
can be done in intelligence that will inform those plans and 
enable us to do things differently.
    If we have in one case, for example for the sake of 
argument, 2 weeks warning instead of 2 days' warning, or 2 
months' warning instead of 2 weeks' warning, it can affect how 
we arrange ourselves. We are into that, but we have not 
completed it. We are working hard at it.
    Senator Shelby. But the intelligence initiative we are 
talking about, that is central to what you plan to do and how 
you do it, is it not?
    Secretary Rumsfeld. Absolutely.

                          DOD-NASA PARTNERSHIP

    Senator Shelby. The National Aerospace Initiative. Mr. 
Secretary, you have been outspoken on the importance of space 
to military operations and in your support of the National 
Aerospace Initiative. While the Air Force is partnering with 
the National Aeronautics and Space Administration (NASA) on 
various technology development initiatives that support both 
their shared and unique mission objectives, I think we can and 
should do much more to support the National Aerospace 
Initiative.
    Would you elaborate if you could on DOD's partnership with 
NASA in this regard? Do you see it growing or not growing?
    Secretary Rumsfeld. I do not know, to be very direct. The 
Department has had multiple linkages with NASA dating back to 
the time when I was on the Space Committee in the Congress in 
the 1960s, and they have shifted as the focus of our space 
efforts shift. They each have a distinctive role, the civilian 
side and the military side.
    But we have over the decades, the Department has benefited 
by the relationship and certainly NASA has benefited by the 
relationship. How it will evolve in the future I think really I 
am just not in a position to say.
    Senator Shelby. Would you talk briefly, if you would, about 
using space superiority to fight smarter and what space-based 
radar will add to the Department's war-fighting capability? How 
important is space to all of this? I would say very important, 
but I would like to hear you.
    Secretary Rumsfeld. Indeed it is.
    Dov just reminds me here that this budget does provide $118 
million for the National Aerospace Initiative to continue the 
development of the integrated approach.
    In the information age, space plays a critical role and it 
will increase, not decrease, over time. The need for 
information and the leverage it provides and the force 
multiplier it provides through improved situational awareness 
and through the ability to interconnect the different services 
and indeed different countries' services into combined joint 
efforts, space plays a critical linking role there. So you are 
absolutely correct.
    Dr. Zakheim. Sir, as you know, some of our sensors are 
affected by weather. To answer your question about space-based 
radar, that would give us 24-hour-a-day, 7-day-a-week 
capability to see what we want, when we want.
    Senator Shelby. Very important, is it not?
    Dr. Zakheim. Yes, sir.

                           UNMANNED VEHICLES

    Senator Shelby. Secretary Rumsfeld, lastly, the Predator 
and the Hellfire missile. A lot of us view that as a real 
achievement, you know, integrating the Hellfire missile onto 
the Predator unmanned aerial vehicle. Do you see that growing 
in the future, unmanned vehicles, weaponizing them and so 
forth?
    Secretary Rumsfeld. I do. I think that the things that 
unmanned aerial vehicles--indeed, I would go so far as to say 
unmanned vehicles; they may be aerial, they may be surface, 
they may be subsurface, they may be a variety of things--we 
will see evolving over the decades ahead in ways that we 
probably do not even imagine today.
    We have been significantly advantaged in the past 2\1/2\ 
years by the availability of unmanned aerial vehicles.
    Senator Shelby. And a lot of that was put together very 
quickly with the help of our organic labs, was it not?
    Secretary Rumsfeld. It was, and indeed, as I mentioned in 
my opening statement, with some prodding from the Congress.
    Senator Shelby. Yes, sir.
    Mr. Chairman, thank you. Thank you, Mr. Secretary.
    Senator Stevens. Senator Hollings--no, Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, and thank you, General Pace and 
Dr. Zakheim. I note in yesterday's Washington Post the 
following headline: ``Baghdad Anarchy Spurs Call for Help.'' I 
read excerpts therefrom: ``Baghdad residents and U.S. officials 
said today that the U.S. occupation forces are insufficient to 
maintain order in the Iraqi capital and called for 
reinforcements to calm a wave of violence that has unfurled 
over the city, undermining relief and reconstruction efforts 
and inspiring anxiety about the future.''
    [The information follows:]

                [From the Washington Post, May 13, 2003]

 Baghdad Anarchy Spurs Call For Help; Iraqis, U.S. Officials Want More 
                                 Troops

              (Peter Slevin, Washington Post Staff Writer)

    Baghdad residents and U.S. officials said today that U.S. 
occupation forces are insufficient to maintain order in the 
Iraqi capital and called for reinforcements to calm a wave of 
violence that has unfurled over the city, undermining relief 
and reconstruction efforts and inspiring anxiety about the 
future.
    Reports of carjackings, assaults and forced evictions grew 
today, adding to an impression that recent improvements in 
security were evaporating. Fires burned anew in several Iraqi 
government buildings and looting resumed at one of former 
president Saddam Hussein's palaces. The sound of gunfire 
rattled during the night; many residents said they were keeping 
their children home from school during the day. Even traffic 
was affected, as drivers ignored rules in the absence of Iraqi 
police, only to crash and cause tie-ups.
    The calls for more U.S. troops to police the city coincided 
with the arrival of L. Paul Bremer III, the Bush 
administration's new civilian administrator assigned to run the 
Pentagon's Office of Reconstruction and Humanitarian 
Assistance. The U.S. occupation authority, which had previously 
been headed by retired Army Lt. Gen. Jay M. Garner, has 
struggled to restore Iraqi institutions since Hussein's 
government collapsed April 9 in the face of a U.S. military 
invasion.
    Bremer, who met with senior staff members tonight inside 
the 258-room Republican Palace, pledged that he and Garner 
would work together for an ``efficient and well-organized'' 
transfer of power, with Garner assisting him for an 
undetermined period. He described his own work as a ``wonderful 
challenge'' and said the U.S. task is to ``help the Iraqi 
people regain control of their own destiny.''
    But the British foreign secretary, Jack Straw, expressed 
disappointment with efforts so far to bring democracy to Iraq. 
He told the British Parliament that ``results in the early 
weeks have not been as good as we would have hoped.'' Straw 
also said the lack of security in Baghdad has been 
disappointing.
    An office and warehouse belonging to the aid group CARE 
were attacked Sunday night. In two other weekend incidents, two 
CARE vehicles were seized by armed men, the organization 
reported today, asking the U.S. occupation forces to ``take 
immediate steps to restore law and order to Baghdad.''
    ``The violence is escalating,'' said Anne Morris, a senior 
CARE staff member. ``We have restricted staff movement for 
their own safety. What does it say about the situation when 
criminals can move freely about the city and humanitarian aid 
workers cannot?''
    Baghdad residents have been increasingly preoccupied by 
violence and the uncertainty it has produced, slowing relief 
and rebuilding efforts. One U.S. reconstruction official said 
tonight, for example, that as the Americans seek to distribute 
salaries and pensions, 20 bank branches have been unable to 
open without U.S. protection in the absence of a credible Iraqi 
police force.
    ``Security is the biggest problem we have,'' the official 
said. ``The banks don't feel comfortable opening, and I agree 
with that.''
    Another official said foreign companies have showed 
interest in installing a badly needed cell phone network, but 
remain unwilling to do so without a safe environment for 
workers. The security threat has also limited the ability of 
reconstruction workers to move through the city and interact 
with Iraqis. Civilian staff members still have instructions to 
wear body armor and helmets and travel with military escorts.
    Food warehouses, hospitals and government offices have 
reported security problems, with administrators pleading with 
U.S. forces to do more. A senior staff member with the U.S. 
reconstruction office said the responsibility for stabilizing 
the situation lies with the U.S. military, which President Bush 
assigned to run postwar Iraq. Any order to increase manpower 
would have to come from Washington.
    ``Any time you have a security vacuum,'' the official said, 
``the only people who are going to be able to fill it are the 
military.''
    U.S. commanders have described Baghdad's security as their 
top priority and have assigned several thousand troops to guard 
200 sites and patrol neighborhoods. But they have also said 
they do not have enough troops to police the sprawling city or 
guard every facility that could be targeted by looters.
    Lt. Gen. David D. McKiernan, commander of ground troops in 
Iraq, said the roughly 150,000 soldiers under his command are 
focusing on many assignments simultaneously, including hunting 
for weapons of mass destruction and Iraq's missing leaders 
while also imposing order on a country the size of California.
    ``Imagine spreading 150,000 soldiers in the state of 
California and then ask yourself could you secure all of 
California all the time with 150,000 soldiers,'' McKiernan told 
reporters last week. ``The answer is no. So we're focused on 
certain areas, on certain transportation networks we need to 
make sure are open.''
    The Pentagon announced early this month that an additional 
4,000 soldiers were being dispatched to Baghdad, bringing the 
total in the city to 16,000. The composition of the force will 
shift as combat units head home and the number of military 
police officers grows from 2,000 to about 4,000 by mid-June.
    McKiernan emphasized the importance of Iraqis taking charge 
of their city. So far, perhaps half the city's police force has 
showed up for vetting and training. But relatively few have 
returned to active work. All 60 of the city's police stations 
were looted--five main buildings are occupied by families of 
squatters.
    There is no working communications system, and only a small 
number of police cars were not ruined by looters during the 
postwar rampage. Police officers, prohibited by U.S. forces 
from carrying anything other than a sidearm, are wary of 
confronting antagonists who can outgun them. The overall 
situation is further complicated by a disabled court system and 
a lack of functioning jails.
    Carjackings have become particularly frequent. A furniture 
salesman, Abdulsalam Hussein, said he watched through the 
picture window of his store as gunmen chased down a Peugeot 
sedan on a busy square, ordered the occupants into the street 
and sped away. ``They had weapons,'' he said. ``No one could do 
anything to help.''
    On Rashid Street today, a U.S. Army patrol endured a busy 
day in the section of the city soldiers call Looterville. After 
chasing down two looters inside a telecommunications building, 
set alight Sunday night, several soldiers from the 3rd Infantry 
Division returned to their Humvees with sweat running down 
their dusty faces in rivulets.
    ``I don't see it getting better. We can't be everywhere, 
can we?'' said Pfc. Jacob Weber, 21. ``I feel like a cop, but 
I'm not a cop.''
    Across the Tigris River, another 3rd Infantry 
reconnaissance unit waded into a dispute over a shooting, 
seized an old pistol and warned the participants to settle 
their argument by calmer means. The troops headed wearily back 
to their base, only to stop within several hundred yards of it 
to investigate reports that gunmen were preventing people from 
putting out a fire near the gutted Culture Ministry.
    ``We're like cops in Baghdad now,'' said one officer in 
helmet and armored vest.
    ``Iraqi Vice,'' deadpanned Sgt. Corey Tondre.

    Senator Byrd. I was interested in your reference to the 
lessons that we need to have learned from the past and your 
comment that we need to apply the lessons from the experience 
in Iraq. It seems that we are learning the same lesson that 
Hannibal learned when he went through the entire length of 
Italy in 16 years. He learned that he needed an occupation 
force. He needed a force that could stabilize.
    He had the speed. He was a great general and I think he 
was--it was stated by Napoleon that Hannibal was the greatest 
general of antiquity. So he could level the cities, he could 
take the cities, but he could not hold them because he did not 
have the forces to occupy and to stabilize. As a result, 
although he had numerous victories throughout the 16 years that 
he was in Italy, he simply did not have the forces to keep the 
cities, and as a result city after city, such as Capua, went 
back over to the Romans after a while.
    It seems we are having that same problem in Iraq. The news 
reports out of Iraq are using words such as ``turmoil,'' 
``chaos,'' and even ``anarchy'' to describe the situation in 
Baghdad. At this point there is little evidence that the United 
States had in place any coherent plan for the reconstruction of 
Iraq following the end of combat.
    I fear that we may see a repeat of the situation in 
Afghanistan, where our forces worked hard to contain the chaos 
in Kabul, only to see the outlying cities fall back toward 
warlord control and turmoil.
    So I think we have other lessons to learn besides those 
that you have appropriately listed. We must learn from our 
mistakes and not be doomed to repeat them. Going into Baghdad, 
the military had the aim of overthrowing the existing 
government. Going into Baghdad, we were warned by U.N. agencies 
and nongovernmental organizations about the lack of water and 
the unsanitary situation in the city. We knew that medical 
supplies were scarce. We knew that military action would likely 
lead to mob action.
    I hope that the recent shakeup in the civilian leadership 
of the U.S. occupation authority will help the situation and 
will not amount to merely rearranging the deck chairs on the 
Titanic. But for the time being, it is the U.S. military that 
has the responsibility of maintaining order in Baghdad.
    What specific and immediate steps are you taking as 
Secretary of Defense to improve the security situation in 
Baghdad?

                           SITUATION IN IRAQ

    Secretary Rumsfeld. Senator, let me comment on a number of 
pieces of that. First of all, I think the characterization of 
``anarchy'' is not accurate. It is a headline writer's phrase 
and it certainly grabs attention. But we were on the phone with 
the people there and the circumstance is something other than 
anarchy.
    You are quite right, you do not need to learn that lesson 
that it is important to stabilize. That lesson has been learned 
throughout history. And General Franks and his team had plans, 
have plans, and have put in place plans to provide for the 
security in that country. It is important to note several 
things.
    Number one, every jail in that country to my knowledge was 
emptied. So on the street are looters, hooligans, and bad 
people. They have to be rounded up and put back in. That takes 
a little time. You do not do that in 5 minutes. If we emptied 
every jail in the United States of America today, you would not 
in 50 days or 40 days or 30 days or however many days since 
that war has ended--what is it, 20? 20 days, I guess, 3 weeks--
you would not be able to round up all those criminals and bad 
people and put them away again.
    There are also Baathists there. Not everyone was captured 
or killed. And they do not wish us well. They still are part of 
the old regime, and they have to be rounded up and identified.
    Next, we do have a good force there in the country. I 
forget what it is, but United States is probably 142,000, and 
coalition forces are probably another 20,000 plus. They have 
recruited and put back on the streets in that country I am 
going to guess close to 20,000 Iraqi police people. We have had 
donors conferences and force generation conferences in England 
and elsewhere to get coalition countries to come in and supply, 
provide additional forces.
    We have, if I am not mistaken, plus or minus 15,000 
additional U.S. forces that are due to arrive in Iraq over the 
next 7 to 20 days. The deployment of those forces and how they 
are actually utilized in Baghdad--and you asked, do we have a 
plan. The answer is yes. We were briefed on it again today and 
it is being implemented.
    My personal view is that the idea of chaos and turmoil and 
anarchy in the city is, as I say, an overstatement. We were 
told today that maybe two-thirds to three-quarters of the city 
is stable. Now, that is not permissive; it is stable. Another 
portion of it, particularly in the north, is less so, and most 
of the city at night the hooligans are out and the criminals, 
trying to loot and do things.
    We have had people shot, wounded, and killed in the last 48 
hours there in Baghdad. It is a problem. It is critically 
important, as Senator Hollings said, that the one thing that is 
central to success is security. We have a full court press on 
that. The forces there will be using muscle to see that the 
people who are trying to disrupt what is taking place in that 
city are stopped and either captured or killed.
    Senator Byrd. How many U.S. troops are currently in 
Baghdad? Do you expect to increase that number? And are there 
any other coalition forces currently in Baghdad?

                     FORCES LEVELS IN BAGHDAD AREA

    General Pace. Sir, if I may, the current number of 
coalition forces and U.S. troops in the greater Baghdad area is 
about 49,000. There are additional troops arriving as we speak. 
General Franks and his commanders are reviewing the situation 
on the ground to see how they might reset themselves in the 
city to be able to provide the kind of patrolling and presence 
that is necessary to provide the stability they need.
    Senator Byrd. Can you speak to the number, the increase in 
forces?
    General Pace. Sir, right now you have the First Armored 
Division is arriving as we speak and that is an additional 
20,000 troops who are arriving right now, sir.
    Senator Byrd. So that would bring it up to 69,000?
    General Pace. If General Franks and his commanders 
determine that that is where they should go, yes, sir.
    Secretary Rumsfeld. But it is up to the combatant commander 
to decide how he deploys those troops and he has not to my 
knowledge made a final judgment.
    General Pace. He has not, sir.

                             MR. JAY GARNER

    And sir, we are out of time, but I would be wrong if I did 
not point out that Jay Garner is a great American doing a great 
job, and the term ``shakeup'' with regard to him and his 
administration and what he has been doing really does him a 
disservice. This new civilian going over has always been part 
of the plan. I should defer to the Secretary on this, but Jay 
Garner under the U.S. military command that he has been working 
under has done a fabulous job.
    Senator Byrd. My time is up. Let me ask one further 
question. What commitment has the United States received to 
date for peacekeeping forces from other nations?
    Secretary Rumsfeld. First let me just underline what 
General Pace said about General Garner. This is a first-rate 
individual. He has been working since late last year. He has 
done a spectacular job out there. He has put together a team of 
people and they are living in very difficult circumstances.
    He is not being replaced. From the very outset, it was 
clearly understood that at some point a senior civilian would 
be brought in, and Ambassador Bremer is that individual. They 
are working closely together and it is unfortunate when the 
implication is suggested that there is some sort of a shakeup 
because there is a problem. There is no shakeup. This has been 
part of the plan since the very outset.

                   COMMITMENTS OF PEACEKEEPING FORCES

    I cannot answer your question about how many foreign troops 
have agreed. There are I believe already something like eight 
or ten countries that have indicated their willingness to send 
troops. Some of them, it depends on their parliament approving 
it. Some of them, it may depend on having a United Nations (UN) 
connection of some sort, which is now being worked on in New 
York.
    But the talk was of--how many divisions, do you recall?
    Dr. Zakheim. Sir, two divisions initially, between now and 
the next several months.
    Senator Byrd. Would you please list those?
    Senator Stevens. Your time has expired. I am sorry, 
Senator.
    Senator Byrd. Yes, I understand.
    Would you please list those countries for the record?
    Secretary Rumsfeld. If they have publicly so stated, we 
will be happy to.
    [The information follows:]

    The following is a list of countries who have publicly provided 
significant contributions to coalition operations.

  INTERNATIONAL SUPPORT AND COALITION CONTRIBUTION TO OPERATION IRAQI 
                       FREEDOM AND POST-WAR IRAQ

    Countries supporting Coalition operations: 66.
    Troops in the Coalition: more than 40,000.
    Aircraft in the Coalition: 190, including ship-based helicopters.
    Ships in the Coalition: 58.
Significant Coalition Ground Contributions
    Albania--Deployed an Infantry Company in Northern Iraq.
    Australia--Deployed Special Operations Forces (SOF).
    Bulgaria--Prepared to deploy a light Infantry unit.
    Czech Republic--Deployed a Nuclear, Biological, Chemical--
Consequence Management (NBC-CM) unit to Kuwait.
    Republic of Korea--Deploying a Construction and Engineering Support 
Group to Iraq to conduct infrastructure reconstruction and repair.
    Italy--Prepared to deploy a Mechanized Infantry Brigade.
    Kuwait--Committed Peninsula Shield Forces for the defense of 
Kuwait.
    Lithuania--Deployed a cargo handling team to Kuwait.
    Netherlands--Deployed Patriot batteries to Turkey, to support NATO 
Article IV defense of Turkey during hostilities.
    Poland--Deployed a Coalition NBC-CM unit to Jordan; deployed Polish 
SOF; preparing to deploy a division and assume operational 
responsibility of one sector in Iraq.
    Romania--Deployed an NBC-CM unit to Kuwait, to respond to any Area 
of Responsibility-wide WMD event; maintains additional units on a 
Prepare to Deploy Order, to respond to component needs within the Iraqi 
Theater of Operations.
    Slovak Republic--Deployed an NBC-CM team to Kuwait, to support AOR-
wide response to a WMD event.
    Ukraine--Deployed an NBC-CM Battalion to Kuwait, to support AOR-
wide response to a WMD event.
    United Kingdom--Deployed Special Operations Forces; UK forces were 
directly responsible for coalition successes in Basrah and southern 
Iraq.
Significant Coalition Air Contributions
    Australia--Provided 14 fighter aircraft, three helicopters, and two 
aircraft for airlift.
    United Kingdom--Provided 66 fighter aircraft, 14 tanker aircraft, 
41 helicopters, 10 reconnaissance aircraft, four AWACS aircraft and 
four aircraft for airlift.
Significant Coalition Naval Contributions
    Australia--Deployed three ships (two frigates and one support ship) 
to conduct Maritime Interception Operations in the Persian Gulf 
enforcing U.N. sanctions against Iraq; deployed two P-3 aircraft to 
conduct Maritime Patrol mission in support of OIF.
    Denmark--Deployed one coastal submarine and one frigate in the 
North Arabian Gulf.
    Spain--Deployed one frigate and one support ship to the North 
Arabian Gulf to support their Landing Platform Vessel (LPD) with 
embarked medical unit.
    United Kingdom--Deployed the largest number of coalition vessels in 
support of OIF, with a maximum of 31 vessels. These forces included 
destroyers, frigates, aircraft carrier, helicopter carrier, supply 
ships, mine counter measure forces, and submarines.
Significant Coalition Humanitarian Assistance/Medical Contributions
    Australia--Delivered two C-130 aircraft full of medical assets to 
Talill, Iraq.
    Czech Republic--Deployed 50-bed Level III Field Hospital to Basrah; 
deployed six water purification units to Iraq to areas with urgent 
potable water requirements. Czech forces will train local Iraqi 
personnel to operate these units, and leave the units in Iraq.
    Denmark--Deployed a three man surgical team to Jordan.
    Italy--Deploying a Level III field hospital, with associated 
security personnel (Carabinieri and Army), water, sanitation, and civil 
engineering specialists.
    Republic of Korea--Deployed a Medical Support Group, consisting of 
a Level II+ Field Hospital to An Nasiriyah. Hospital has 60 beds.
    Kuwait--Donated medical supplies to Umm Qasr; Kuwait flew the first 
non-U.S./Australian/British military aircraft into Baghdad 
International Airport, delivering a Field Hospital with 40 beds.
    Lithuania--Deployed four medical personnel with trauma and 
orthopedic surgery specialties to Umm Qasr, where they are integrated 
in the deployed Spanish Field Hospital.
    Spain--Deployed one medical facility (Level II+, 14 beds) embarked 
on an LPD and one deployable Field Hospital (Level II+, 40 beds) to 
North Arabian Gulf and Umm Qasr, respectively. To date, they have 
treated in excess of 1,800 non-enemy prisoner of war personnel and 
incorporated Lithuanian medical personnel in Spanish facility at Umm 
Qasr. A Marine platoon and engineer unit are supporting humanitarian 
reconstruction in the Umm Qasr and Basrah areas.

    Senator Stevens. Very well.
    Senator Cochran.
    Senator Cochran. Thank you, Mr. Chairman.

                PERFORMANCE OF ARMY PATRIOT PAC-3 SYSTEM

    Mr. Secretary, the recent experience in Iraq indicated that 
the Army Patriot PAC-3 system successfully defended our forces 
against Iraqi missile attacks. My question is whether or not 
your assessment is consistent with the reports that were made 
available to us in the press that this system worked as it was 
intended and expected to work, and does the budget contain 
funds to continue to build systems like this and others that 
might protect our forces and our country against even longer-
range missiles?
    Secretary Rumsfeld. The budget does have, as I note here, 
some $736 million for PAC-3, $561 million of which is for 
procurement and $174 million for research, development, test, 
and evaluation.
    My preliminary impression is identical to yours. I know 
that the lessons learned will be coming back with greater 
specificity, but from what you hear anecdotally there is no 
question but that the PAC-3 was effective. I should also add, 
however, that we do have to do a better job of deconflicting. 
You may recall that there were some incidents where PAC-3s 
actually intercepted U.S. aircraft and friendly aircraft. How 
that--what those lessons are and how we can improve that--it 
has always been true in every conflict that those things 
happen, but our goal obviously is to do it perfectly, and in 
that case we did not.
    Pete?
    General Pace. Yes, sir. United Kingdom (U.K.) aircraft, 
sir.
    Senator Cochran. General Pace, I understand that the Medium 
Extended Air Defense System (MEADS), may offer significant 
enhancements over the PAC-3, but because of funding constraints 
and other considerations it is not to be fielded until fiscal 
year 2012. Is this an accurate assessment of when we will see 
this system deployed and what is the outlook for deployment of 
other systems that build upon the PAC-3's successes?
    General Pace. Sir, there is about $280 million in this 
particular budget for the medium-range missile. I do not know 
the date. As you stated, I will have to take that for the 
record. But I can reinforce the fact that the PAC-3 system and, 
in fact, all the Patriot systems in Iraq and Kuwait were--first 
analysis is that every troop concentration was under an 
umbrella of a missile system and that no missile got into any 
of those umbrellas.
    [The information follows:]

    The current fielding schedule for the Medium Extended Air Defense 
System (MEADS) is First Unit Equipped in fiscal year 2012. However, 
recent Defense Acquisition Board (DAB) direction to combine the PATRIOT 
and MEADS programs should provide a significantly increased Theater Air 
and Missile Defense capability earlier than fiscal year 2012. The DAB 
decision to combine the two programs is based upon the successes of the 
PAC-3 missile as the primary interceptor and the desire to field the 
MEADS capability to the Services and Allies as rapidly as possible.

                            MISSILE DEFENSE

    Senator Cochran. Well, I want to congratulate you and the 
Secretary in the leadership that is being provided to ensure 
that we can continue to build upon those successes of missile 
defense. We know that Testbed Alaska is under construction now 
and the intent is to deploy a system that can defend against 
much longer range missiles in the future.
    Do you think the budget request for those longer range 
systems and the construction schedule is sufficient to meet our 
needs for defense capability for our homeland?
    Secretary Rumsfeld. Senator, I know you have been long 
active in this important area. With the end of the Anti-
Ballistic Missile (ABM) Treaty and the ability for the first 
time to go out and actually test different ways of doing 
things, we were able to move into a period that has contributed 
to our knowledge and to the country's knowledge in these 
technologies. That is a good thing. It is a good thing from the 
standpoint of each possible alternative of boost and mid-range 
and terminal. It is a good thing from the standpoint of the 
system you mentioned for Alaska. It is also a good thing from 
the standpoint of sea-based systems.
    My feeling is that General Kadish has done a terrific job 
in that role in my view, has got a pretty good balance in his 
proposals as to where we ought to put our money to gain 
additional knowledge and, as you point out, to also develop 
this beginning of a capability to intercept relatively low 
numbers of Intercontinental Ballistic Missiles (ICBM's).

                 SHIP LEASING AND DEFINING REQUIREMENTS

    Senator Cochran. On another subject, I know that both the 
Navy and the Army have been experimenting with leased vessels 
to define the requirements of the Littoral Combat Ship in the 
case of the Navy and the Theater Support Vessel that the Army 
considers important for its purposes. I understand too the Army 
is considering leasing a lot more of these vessels. They are 
catamaran-type vessels, high-speed vessels.
    We have shipbuilding firms on the Mississippi Gulf Coast 
that are very capable of building cost-effective ships for our 
military and I wonder whether you will look at this leasing 
plan and see whether or not it might be more appropriate to 
build these ships rather than to lease foreign vessels for 
experimentation and analysis.
    Secretary Rumsfeld. Let me have Dov answer that.
    Dr. Zakheim. One of the reasons, Senator, that these leases 
are being looked at is because they are still trying to define 
exactly what kind of platforms they have in mind. The Littoral 
Combat Ship is a good example. I know down in Mississippi you 
have a tremendous composite facility which has come up with a 
completely new type of composite ship.
    The issue really is defining requirements, and until they 
have got them nailed down--and as you know, the Navy has been 
working on that for its part and the Army for theirs--in order 
to just get a sense of what requirements might be needed, they 
are leasing. I do not believe that that is the long-term 
intention.
    Senator Cochran. Thank you very much.
    Thanks, Mr. Chairman.
    Senator Stevens. Thank you, Senator.
    Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    Interesting listening to this and interesting how much we 
have improved in the high tech area of our military. Mr. 
Secretary, you and I have talked before about such things as 
using drones and all, but I think we are in absolute agreement 
on the fact, especially for surveillance and everything else, 
it is a lot easier to stick something up there that, if it does 
get shot down, we have lost a drone, we have not lost a person. 
It can stay longer and you have more flexibility.
    We also--I know this committee funded an Advanced Data Link 
that allowed target information to go to our aircraft quickly. 
That was an initiative that I had worked on. This committee had 
funded it. I hear that, from pilots over there, that the 
Gateway made a real difference and I want to compliment those 
who used it.
    In Iraq we confirmed the total force concept. We had the 
Guard, the Reserves, the Active force fighting side by side. 
The commanders tell me they were an integral part of our 
military victory. I am concerned, however, that benefits for 
our reservists have not changed. For example, about 20 percent 
of reservists do not currently possess adequate health 
insurance. I am told this undermines readiness, undermines 
recruitment, and so on, retention.

             TOTAL FORCE POLICY AND TRICARE FOR RESERVISTS

    Would you support legislation to make reservists eligible 
for Tricare on a cost-share basis?
    Secretary Rumsfeld. Senator----
    Senator Leahy. And I just say, I ask that--I am the Co-
Chair of the Guard Caucus and it is a bipartisan group. We have 
a lot of members who are interested.
    Secretary Rumsfeld. I have discovered that I best not 
answer questions like that until I look at the numbers and 
costs and see what one has to give up to have something like 
that.
    Senator Leahy. Would you do that and submit it to me?
    Secretary Rumsfeld. We will be happy to take a look at it 
and see what the costs are. I would add this, that you are 
quite right, however; the total force concept works. It has 
worked in the conflict. It is working today. But one of the 
delays in calling people up was that, you are right, their 
teeth needed to be fixed and various other things that they had 
not paid attention to.
    It may very well be at some point that there would be some 
advantage in having certain elements of the Guard and Reserve 
more ready, that is to say having had their teeth checked and 
having had those kinds of physical checks so that there is not 
a delay and a big paperwork rush when you are trying to get 
people on active duty.
    Senator Leahy. I am also concerned about the health 
insurance because there is a long hiatus and they may be 
without it. I would be glad to work with your staff on this, 
but this is a growing concern. Those of us in the caucus from 
both parties are concerned about it. We hear from our home 
States and all.
    I think it is something, we are pushing for legislation on 
this. I think it is something that can be done that would 
ultimately be a very cost-effective thing. I realize this is 
not a question where you have the answers on the top of your 
head, but would you direct your staff to work with mine so we 
can share this information with the whole Guard Caucus?
    Secretary Rumsfeld. We would be happy to dig into it. Thank 
you.
    [The information follows:]

    The Department has over the past 2 years used existing legislative 
authority to ensure equality of benefits under TRICARE for the 
activated Reserve and active duty force and their families.
    TRICARE implemented its demonstration authority and provided 
immediate relief to activated Reserve family members by waiving the 
requirement that they obtain a non-availability statement from a 
Military Treatment Facility; by waiving the requirement that they meet 
their statutory deductible under TRICARE Standard; and by paying up to 
the legal liability limit to non-participating providers, thereby 
relieving them of the need to pay anything above their normal cost 
share.
    Recently, the Department changed its policy to allow the activated 
Reservist's family member residing in the catchment area of Military 
Treatment Facilities to be eligible for TRICARE Prime after the 
Reservist has been activated for 30 days, as opposed to the previous 
180 days.
    Congress last session provided the TRICARE Prime Remote for Active 
Duty Family Member (TPRADFM) benefit to reserve family members, but 
only if they ``reside with'' the reserve member. The Department is 
interpreting this language liberally to allow the family members to be 
eligible for TPRADFM as long as they reside with the Reservist at the 
time orders are received, rather than requiring the family to 
continuously reside with the member.
    The Department, however, does not support legislation that would 
make Reservists or their family members eligible for TRICARE when not 
on active duty. The GAO has estimated the cost of providing the TRICARE 
benefit for Reservists who are not on active duty at approximately $2 
billion per year.

                  WEAPONS OF MASS DESTRUCTION IN IRAQ

    Senator Leahy. Why haven't we found the WMD?
    Secretary Rumsfeld. Locating hidden WMD in a country the 
size of Iraq will be difficult and time consuming. Voluntary 
disclosure by Iraqi citizens will probably prove to be the best 
sources of evidence. Finding documents will aid in the search, 
however, and interviewing program personnel is critical for 
locating WMD.
    Senator Leahy. Secretary, were you surprised we have not 
found any weapons of mass destruction in Iraq yet?
    Secretary Rumsfeld. Not really. I have believed all along 
that the inspections, the U.N. inspectors, had very little 
prospects of finding anything by discovery. I have always 
believed that they would be--they or the people on the ground, 
in this case us, will have the best prospect of finding the 
weapons programs and documentation and the weapons themselves 
through people who have been involved in those programs and 
come up and tell us where to look.
    The government lived many lies, but one of the lies they 
lived for decades, at least better than a decade, was the 
ability to fool the inspectors. They actually arranged 
themselves so that they could live with the U.N. inspectors.
    Senator Leahy. No, I understand that, and I have read a 
number of the reports, as you have, reports we cannot go into 
in open session. But we are on the ground now. We have gone to 
a number of the areas, gone extensively into a number of the 
areas that we had felt and our military and our intelligence 
had felt would be areas of weapons of mass destruction and have 
not discovered anything.
    I wonder, if those weapons are there, why they--and if they 
were, they were not used against our troops. I am very thankful 
for that, as are you and General Pace and everybody else. But I 
wondered why, why they were not.
    I am also concerned, if they were there, especially in the 
areas that we had said that we wanted to look at and now have 
looked at, is there any possibility that they have seeped out 
and are now in the control of terrorists whose interests are 
inimical to us?
    Secretary Rumsfeld. I certainly would not say that 
something like that is not possible. With porous borders--and 
that country I suppose had borders pretty much like we do with 
Canada and Mexico. There are plenty of things that move back 
and forth across those borders in Iraq that----
    Senator Leahy. You probably do not want to go too, too far 
with comparing Iraq's and Syria's borders with ours with Canada 
and Mexico. We are a little bit friendlier with those two 
countries, I hope.
    Secretary Rumsfeld. My goodness, yes.
    Senator Leahy. I live only an hour's drive from Canada.
    Secretary Rumsfeld. We have wonderful people on both sides 
trying to maintain the border. But the fact is that things move 
across those borders, and they are moving clearly across the 
Iranian border, the Syrian border, into Iraq and out of Iraq. I 
do not think that I could say that, with certainty, that things 
were not moved out, either by the Government of Iraq or by 
others.
    Senator Leahy. But you do not have any indication that they 
had set up with the intent of using such weapons against our 
forces when we began to attack?
    Secretary Rumsfeld. There was--I am trying to think what I 
can say in an open session and I guess there is not much I can 
say in an open session.
    Senator Leahy. Well then, perhaps what you may want to do 
is submit in the normal classified fashion a response on that 
one.
    Secretary Rumsfeld. The fact is we do see intel chatter 
that suggests that things might have moved, but----
    Senator Leahy. I am talking about the fact of why they did 
not use it against us.
    Senator Stevens. Your time has expired.
    Senator Leahy. Mr. Chairman, could I request the staff so 
cleared for such information follow up on that last question in 
a classified portion? Thank you.
    [The information follows:]

    It is unclear why WMD was not used. The possibilities include, that 
the Iraqis were too busy moving the WMD for purposes of flight or 
hiding that they were unable to use it in combat, that no orders for 
WMD use came due to quick regime collapse, that Iraqi soldiers refused 
orders to use WMD, or that the Iraqis destroyed the WMD prior to 
coalition troops arrival.

    Senator Stevens. Senator Domenici.
    Senator Domenici. Mr. Secretary, I did not come to the 
hearing this morning as familiar with what happened to Hannibal 
and the Romans, but let me tell you I came here just as 
concerned as Senator Byrd about the stability or lack of 
stability in the daily lives of the people of that country, and 
I remain genuinely concerned that we are in a situation where 
we may have won the war and we lose the battle.
    So I cannot stress enough that we do whatever is necessary 
to bring law and order to that country and that we establish 
some kind of a plan quickly for the orderliness of that 
society. I understand that we were surprised by a number of 
things, such as the condition of their infrastructure. We 
assumed that it was better than it is. It is breaking down in 
places and at intervals that we had not expected, and that 
causes confusion, causes concern, and ultimately blaming 
Americans if things are not going right.
    In that regard, I wonder why your answers continue to be 
that this will be handled by the distinguished General who won 
the war. I wonder why it is his job to keep that situation 
going and why there is not some other kind of order that is 
going to be established quickly that is not under his direct 
command. If you might answer that for me in a moment, I would 
appreciate it.
    Secondly, it seems to me that it is absolutely imperative 
that the United States maintain order, regardless of how 
difficult it is, because without it there is a real chance that 
the people of that country will assume that the victory that we 
claim is not a victory at all. Could I have your comments on 
that quickly, and I have two other very brief questions.

                U.S. COMMITMENT AND COMMAND ARRANGEMENTS

    Secretary Rumsfeld. Yes. First, the President has said 
publicly that the United States and coalition forces will put 
whatever number of forces are needed for as long as they are 
needed, and there is no disagreement about the importance of 
providing security.
    Second, the command arrangements are as follows. The 
combatant commander reports to me and I report to the 
President. He has the responsibility for security in that 
country. The humanitarian side of that and the non-security 
side, the non-military side, is now in the hands of the 
individual who has been mentioned previously, Ambassador Jerry 
Bremer, and he has under him all of those things other than 
security, and he reports to me and I report to the President.
    The infrastructure, as you properly point out, was badly 
degraded over the decades. The power situation, for example, in 
Baghdad is so fragile that getting it back working 100 percent 
of the city 100 percent of the time is not a simple matter, and 
it takes some time. For example, prior to the war only 60 
percent of Iraqis had reliable access to safe drinking water. 
Ten of Basras 21 potable water treatment facilities were not 
functional before the war.
    Now, as I said earlier, you empty all the jails and you put 
a bunch of hooligans out and you look at an infrastructure that 
was not working before the war, and then everyone says: Well, 
my goodness, it is chaos, it is turmoil; what is the matter 
with you? You have been there for 21 days and you have not 
solved all the problems.
    I think that they are doing a terrific job. They will 
continue to do a better job. The circumstances of the people in 
that country are better than they were before the war. They are 
going to get better every day. We are finding mass graves, 
thousands of human beings that were killed by that government. 
What should we do? Would you rather have a policeman here or 
someone down there guarding those graves? Would we rather have 
someone here?
    There are lots of priorities, and we cannot make a country 
that has been badly treated and abused and a people that have 
been badly treated and abused for decades, we cannot make it 
right, we cannot make it like the United States, in 5 minutes, 
and we know that. We have got wonderful people out there doing 
a darn good job and their circumstances are going to get better 
every single day.
    Senator Domenici. Mr. Secretary, I wholeheartedly agree 
with you and I am not arguing with you. I am merely suggesting 
for the public record that if there is one thing we are good at 
it is establishing order and establishing a way of putting 
things into a sense of order and developing construction 
techniques and construction formats that are credible and that 
people will believe and can see. And I merely urge that these 
happen quickly. I have not heard much about that. I assume that 
I will, and I thank you for your answer.
    The second question has to do with one that has bothered me 
in terms of informing the public of something we did that was 
rather spectacular. Our ability to target our weapons was a 
spectacular achievement. It is a combination of technology, 
much of which is secret, much of which we cannot divulge. But I 
have wondered whether or not it is possible that you could have 
a neutral group evaluate how we went about, what care we took, 
how much emphasis, energy, time, money, and resources we put 
into this episode, and have it as some kind of a feature to 
show the world what we have done.
    So far it is just something that we can see in terms of the 
effect. It would seem to me it would make an incredible story, 
put forth by credible writers, as to what we had to go through 
to get there. I can imagine the hours spent in trying to 
determine which target versus another target. I can imagine 
time spent looking at a building to see who occupied it and 
when so we would know whether or not to strike it or not 
because the occupants are innocent people. In fact, I happen to 
know those kinds of decisions were made.
    It seems to me that to get that out in a tabloid form where 
everybody could understand and see it would be a remarkable 
positive for American involvement in this particular war. I 
would like your comments and I thank you for your testimony.

                       CAREFUL TARGETING IN IRAQ

    Secretary Rumsfeld. Senator, you are certainly obviously 
very knowledgeable and exactly correct. The amount of--the 
hundreds of hours and the hundreds of people that were involved 
in looking at targets and making judgments about which targets 
would give the greatest advantage with the least potential for 
collateral damage; what time of day to strike a target where 
there would be the fewest innocent people in any area; what 
direction the weapon should be directed so that it would avoid 
civilian areas; what type of weapon to use; how to use that 
weapon; how to fuse it.
    All of those things were gone into with enormous care and 
detail. And you are right, it would be a story that would 
reflect very well on the United States and on the people 
involved.
    Senator Domenici. Would you mind taking a look at whether 
that could be done?
    Secretary Rumsfeld. I will certainly take a look at whether 
it could be done.
    Senator Domenici. I do not mean to burden you with all the 
other things you have, but it seems to me to be public 
relations, a very, very positive kind of thing.
    Thank you.
    Senator Stevens. The Senator's time has expired.
    Senator Domenici. Thank you, Mr. Chairman.
    Senator Stevens. Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.

                    ROBUST NUCLEAR EARTH PENETRATOR

    Mr. Secretary, I wanted to take this discussion in a 
slightly different way and I wanted to talk about the Robust 
Nuclear Earth Penetrator. I read the nuclear posture review 
when it came out in 2002 and saw where, if that were put into 
actual public policy, there would be a substantial departure 
from where this Nation in the past was going with respect to 
nuclear weapons.
    Then as I looked at the doctrines of unilateralism and 
preemption and see the authorization that has been requested 
for $15 million to continue the study of the Robust Nuclear 
Earth Penetrator (RNEP), the likelihood is that that 
authorization will pass and that we will be faced with an 
appropriation of money as well.
    The way I see it, development of the RNEP represents a 
blurring of the line between conventional and nuclear weapons 
that may very well undermine our efforts to limit 
proliferation, and which may give nuclear armaments a role in 
this new United States doctrine of preemption. So I am 
obviously very concerned about it and wonder why, with the 
massive conventional weaponry that we have at our disposal, 
whether it be a daisycutter or a conventional bunkerbuster or 
the other things that we have, why is it necessary at this 
particularly tenuous point in time to begin a new effort with 
respect to nuclear weapons which can only in my view take us 
down a disastrous course?
    Secretary Rumsfeld. Senator, let me make a few comments on 
some of the things you said so that the record is very clear. 
You indicated that there is a proposal that you think is going 
to pass to develop a tactical nuclear weapon, I believe you 
said.
    Senator Feinstein. An authorization for $15 million for the 
Robust Nuclear Earth Penetrator.
    Secretary Rumsfeld. Right. And I think that is not 
accurate. I think that there is a proposal to fund a study, not 
the development, not the production, but a study. Let me tell 
you why. And you smile, but it is a serious matter that we do 
not have in the inventory the ability to deal with an 
underground, deeply buried target.
    We are looking and studying a variety of ways that that 
might be done, one of which is the one you are mentioning, 
which is a study, not the development, not the building, no 
major departure as you suggested.
    I would say this, that I do not think it would blur--
studying the possibility of developing in several different 
ways, one of which is the one you mentioned, an ability to hit 
a target that is deeply buried is not going to in my view blur 
the distinction between conventional and nuclear weapons. You 
are right, if you study it someone might say, well, then you 
could build it some day. And that is true, you could, you could 
decide it. But that is a totally different issue and it is not 
part of what is before the Congress, as your statement 
suggested.
    Why do I not think that it would blur it? Nuclear weapons 
were used once, in 1945, and they have not been fired since in 
anger. That is an amazing record for human beings. Never in the 
history of mankind have there been weapons that powerful or 
anything approximating it, that distinctly different, that have 
not been used. They have not been used.
    Now, what does that mean? It means at least civilized 
countries, democracies, the ones that have those weapons thus 
far, and the few that are not democracies that have them, have 
made a conscious decision that there is a big difference in 
crossing that threshold. The United States has been at war in 
Korea, we have been at war in Vietnam, we have been in war lots 
of places since 1945, and they have never been used.
    No President is going to think that the line is blurred 
suddenly because of a study to see if we can develop an ability 
for a deep earth penetrator, in my view. Am I correct in----
    Senator Feinstein. May I ask you further on that?
    Secretary Rumsfeld. Sure.
    Senator Feinstein. According to the press reports, the 
nuclear posture review puts forward several scenarios in which 
the United States would consider a first use of nuclear 
weapons. I can mention them here if you wish. And when that 
comes out in 2002, although it was somewhat debunked by the 
administration, a year later we find that the studies are 
beginning to develop new tactical nuclear weapons.
    Yes, nuclear weapons were only used once before, but they 
were used by the United States, and now we have concern about 
India and Pakistan, we have serious concern about North Korea, 
and our efforts have been to limit the proliferation of nuclear 
weapons. To me, it is counterproductive to our overall purposes 
of limiting proliferation to begin studies that take us into 
the area of the possible use of tactical nuclear weapons.
    Would you comment?
    Secretary Rumsfeld. You bet. I have to again correct what 
you said. You say we now found out that the United States is 
beginning to develop tactical nuclear weapons.
    Senator Feinstein. No, I did not. I beg your pardon.
    Secretary Rumsfeld. Oh, I misunderstood, then.
    Senator Feinstein. No, no. I say we now find that a study. 
I mean, I accept your word. I have no reason not to accept your 
word that this is a study.
    Secretary Rumsfeld. My point is we have tactical nuclear 
weapons, theater nuclear weapons. We have had them for decades. 
They exist. We have lots of them. We have a fraction of those 
that----
    Senator Feinstein. Can we confine it to the Robust Nuclear 
Earth Penetrator.
    Secretary Rumsfeld. I did. I pointed out it is a study and 
it is not the development of a tactical nuclear weapon, as you 
suggested. It just is not. We have lots of studies and we 
should do studies. We have lots of war plans and contingency 
plans, and we should have those. We do not use them all. 
Obviously, the job of the Department of Defense is to be 
prepared to defend the American people, and that is what we do. 
We plan, we study things, we try to develop different kinds of 
capabilities from time to time.
    But any development program would have to come before this 
body.
    Senator Feinstein. No, I understand that. It is just in the 
public policy that one might look at nuclear weapons. If we are 
trying to discourage their use, now that we have this well-
established doctrine of preemptive action, unilateral action, 
and you add to this possible scenarios where nuclear weapons 
could be used, why does that not encourage other nations to 
become nuclear in response?
    Secretary Rumsfeld. Well, first let me say one thing. You 
mentioned unilateral action. In the Iraq effort there were 49 
nations involved. I keep reading in the press about unilateral 
this and going it alone that. It was balogna. There were 49 
countries in one way or another assisting in that effort. It 
seems to me that that is just a fact.
    If you think about the proliferation problem, it is a 
serious problem, and I agree completely with you and I worry 
about it a great deal. The fact is we could have 50 percent 
more, even 100 percent more, nuclear nations in the next 15, 20 
years, and that is not a happy world to live in. It is not a 
good thing.
    The idea that our studying a deep earth penetrator, 
studying a nuclear deep earth penetrator, is going to 
contribute to proliferation I think ignores the fact that the 
world is proliferating. It is happening. It is happening 
without any studies by us. It is going on all around us. North 
Korea will sell almost anything it has by way of military 
technologies for hard currency. That is what they do.
    I think that any implication that a study in the Department 
for that would contribute to proliferation simply is not 
consistent with the fact, because we have got a world that is 
filled with proliferation. It is pervasive.
    Senator Stevens. The Senator's time has expired.
    Senator Feinstein. Thank you, Mr. Chairman.
    Senator Stevens. We will now go to the second round and 
limit it, if it is agreeable, to 5 minutes. I have agreed that 
the Secretary and General and Deputy Secretary would be able to 
leave at 12:30.
    Let me start off with just one statement, Senator, Senator 
Feinstein. The implications of the Senator's questions are that 
Harry Truman was wrong. Two of us sitting here were part of the 
2-million-man force that was in the Pacific that might have had 
to be used to invade Japan. I think Harry Truman goes down in 
history for having the courage to make that decision. Not that 
I think any future President will make the same decision, but 
if in that same position I hope we have the weapons and I hope 
we have the President who has the courage to make the decision 
for our national survival.
    My question to you now, though, Mr. Secretary--that took 5 
minutes? We have a situation on these weapons of mass 
destruction. Several of us were among those that were briefed 
by your intelligence people, the Central Intelligence Agency 
(CIA), and others on the probable existence of those weapons. I 
think it is absolutely necessary we follow every possible 
avenue to get them.

         SOLICITING INFORMATION ON WEAPONS OF MASS DESTRUCTION

    My question is, have you advertised a reward for those 
people who might have that knowledge? Any one of those people 
who come forward and gives us the knowledge of the existence of 
those is dead unless we take care of them. I hope we are 
advertising a substantial sum of money for creating a new life 
if they come forward and help us get that information.
    Secretary Rumsfeld. I have not seen radio or leaflets or 
specific documents that do that. I do know that we have asked 
that that be done and that there are reward systems and that 
people are being encouraged to come forward, and that I have 
said publicly to the Iraqi people that their circumstance will 
be much better if they come forward.
    The problem of amnesty is a difficult one because of the 
fact that the Iraqi people may decide to make judgments about 
Iraqi people who served Saddam Hussein's regime. So it is a 
tricky business.
    Senator Stevens. Well, we moved this gentleman who came 
forward on Private Lynch and brought him to this country 
immediately. I think we have that power now. I hope we use it 
in terms of this search for these weapons.
    Secretary Rumsfeld. I agree, it is extremely important.

                 CALLUP ON RESERVE COMPONENT PERSONNEL

    Senator Stevens. Let me ask one last question so others may 
have some time. I know that we have taken into the regular 
service, I guess we have called up, guardsmen and reserve 
people. We are now, I am told, demobilizing 50,000 reservists 
and guardsmen per month, but we are still calling other people 
up.
    What can we see in terms of this process of demobilization 
as far as the Guard and Reserve is concerned?
    Secretary Rumsfeld. Senator, let me say a couple of things. 
First of all, we are not demobilizing 50,000 a month. I do not 
know where that came from.
    Senator Stevens. That was a statement that was made to us 
during the supplemental on the record here, that we would 
demobilize 50,000 a month.
    Secretary Rumsfeld. We would is what it said, I think. You 
said we are, I thought.
    Senator Stevens. That was the aggressive assumption that 
was given to us at the time, that we would demobilize 50,000 a 
month.
    Secretary Rumsfeld. I think that may have been an 
assumption in a proposal that suggested at that point where it 
was possible to do so from a security standpoint on the ground 
you would then begin demobilizing. Thus far, what we have 
returned to the United States both Active, Guard, and Reserve 
are essentially Navy and Air Force personnel. Practically no 
Army or Marines have been brought back.
    General Pace. Correct, sir. The projection, sir, in that 
budget supplement was about we thought perhaps 90 days of 
combat. That turned out to be not the right number. We thought 
there would be 50,000 per month, because we had to have some 
kinds of projections so we could prepare a budget supplemental 
that had some validity to it. That is where the 50,000 per 
month comes from.
    As we sit here, the services are going through their own 
analyses and will present to the Secretary later this week or 
the beginning of next week their proposals on how to 
reconstitute the force, Active and Reserve, in a very 
systematic way that allows us to have the force on station that 
is needed today and allows us to regenerate our long-term 
capability.
    Senator Stevens. Okay. I do not want to take the time for 
it now, but that assumption was the assumption for our 
supplemental. I started today by asking you about have you got 
enough money. That is tied into that matter. If we are not 
going to demobilize them, then we do not have enough money to 
keep them much longer. Would you give us a statement for the 
record of what we can see in terms of that demobilization, how 
it affects the money that you have still got available?
    Secretary Rumsfeld. Yes, sir, we will do that. I will just 
say briefly, what we did was we made a set of assumptions and 
said they were only assumptions, and that if it played out this 
way this is roughly what it would cost. And then we said, if 
this were longer, this would be shorter.
    [The information follows:]

    The fiscal year 2003 Supplemental provided $13.4 billion to the 
Department of Defense in Active and Reserve Military Personnel Pay. 
Presently, U.S. Central Command's stability operations plan for Iraq is 
still evolving because of the dynamic environment inside the country. 
The final plan could require a greater than planned presence, including 
the Reserve Component. The current projection is that the Services will 
fully execute the funding appropriated in the Military Personnel 
Accounts. It remains our goal to reduce the numbers of our Reserve 
Component on active duty as quickly as possible, while at the same time 
not jeopardizing our commitment to Operation Iraqi Freedom and the 
Global War on Terrorism.

    Senator Stevens. Right.
    Secretary Rumsfeld. And therefore it balanced. And we 
thought that, regardless of whether the assumptions proved to 
be exactly right, which as Pete points out they are not right, 
nonetheless the money might be roughly the same. And at least 
at this moment, the Comptroller believes that is the case.
    Senator Stevens. But it looks to me like both are longer, 
Mr. Secretary.
    Secretary Rumsfeld. Well, the war was shorter.
    Dr. Zakheim. The war was shorter and in addition, if you 
keep the people out there, then you are not spending the money 
that we did assume and budget to bring them back. So there 
really is an offsetting factor, and we are still pretty 
confident in the number that we got from you for the 
supplemental.
    Senator Stevens. I would like to see a paper on it if we 
can.
    Secretary Rumsfeld. And sir, if we were continuing the war, 
instead of like 90 days, think of the ammunition we would be 
using and the cost of replenishing all of that. So there were 
so many variables that I think we are probably in the ballpark.

                      FORCE LEVELS IN IRAQ THEATER

    Senator Stevens. Senator Inouye.
    Senator Inouye. Thank you.
    Mr. Secretary, if the information is not classified, can 
you give us the statistics on the number of troops, Army, Navy, 
Air Force, and Marines, in theater at the height of the battle 
3 weeks ago?
    Dr. Zakheim. Sir, I can give you a rough guesstimate and 
give you the exact numbers for the record. But right now Army 
is at about 160,000, the Marine Corps is at about 65,000, the 
Navy and Air Force are both at about 30,000 each, sir.
    Secretary Rumsfeld. That is in the theater, not in Iraq.
    Dr. Zakheim. In the theater. That adds up today--I do not 
know these numbers, but I do know that the overall number today 
is right at about 309,000, of which United States in country, 
correct number, is approximately 142,000.
    Senator Inouye. Is it correct that the Marines sent about 
60 percent of their available combat forces there?
    Dr. Zakheim. I think that math is right, yes, sir. They had 
66,000 of their operating forces there. That sounds about 
right.
    Senator Inouye. And the Army sent the equivalent of four 
divisions?
    Dr. Zakheim. That sounds right, sir.
    Senator Inouye. And the Navy sent the equivalent of six 
carrier battle groups?
    Dr. Zakheim. Five, sir.
    Senator Inouye. Five.
    I ask this because this was the bulk of our military, was 
it not, Mr. Secretary? We have ten divisions available in the 
Army. Sixty percent of the Marines were there, 5 carriers out 
of 12 that are available.
    My question is, with that type of commitment and 
assignment, should we be discouraging some of our fellow 
Americans from considering ourselves invincible? Soon after the 
battle they were talking about going to Syria and possibly 
North Korea.
    Secretary Rumsfeld. Yes, I see your point.
    I would like to answer for the record the answer as to 
whether it was the bulk, because the Reserve call-up was not 
the bulk, and therefore if we took the totality of the United 
States armed forces I think I would guess that it was not a 
majority.
    General Pace. That is true, sir.
    Secretary Rumsfeld. Second, you are certainly right that--I 
should add, they were only there for a relatively short period 
of time. There was a gradual buildup and a gradual drawdown, 
with the Air Force and the Navy moving out within some cases a 
relatively short period of time.
    But you are right, no nation is capable of doing everything 
on the face of the Earth at every moment, and certainly those 
people in the Department of Defense who worry with these things 
every day and recognize the costs and the circumstance of our 
forces understand that fully.
    Senator Inouye. Thank you.
    Senator Stevens. Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman.
    The word that I used earlier, Mr. Secretary, was 
``shakeup.''

                    ASSIGNMENT TO AMBASSADOR BREMER

    Secretary Rumsfeld. Yes.
    Senator Byrd. And you seemed to take some--not necessarily 
I would say umbrage, but you sought to differ that 
classification. Let me read from the Philadelphia Inquirer of 
May 13 as follows: ``The new U.S. civilian overseer, former 
diplomat L. Paul Bremer, who arrived yesterday to take over the 
Office of Reconstruction and Humanitarian Assistance from 
retired Army Lieutenant General Jay Garner, is facing his own 
housecleaning. Barbara Bodine, the State Department official 
overseeing the reconstruction of Baghdad, was reassigned after 
3 weeks on the job and at least five other senior members of 
the ORHA [Office of Reconstruction and Humanitarian 
Assistance]''--``of the ORHA staff also will be returning home, 
a senior U.S. official said yesterday.''
    So I offer that for the record in support of the word which 
I used, that being ``shakeup.'' Now----
    [The information follows:]

             [From the Philadelphia Inquirer, May 13, 2003]

           U.S. Hints at Boost in Forces Amid Iraqi Troubles

  (By Maureen Fan, Andrea Gerlin and Soraya Sarhaddi Nelson; Inquirer 
                             Staff Writers)

    Turmoil yesterday continued to dog Iraq and the American 
effort to rebuild the country, and the United States' top 
uniformed military officer hinted that restoring order may 
require more American troops than originally planned.
    Air Force Gen. Richard B. Myers, the chairman of the Joint 
Chiefs of Staff, said that security and infrastructure problems 
were the two major issues facing Iraq and that U.S. troops 
would have a significant role until Iraqis could run their 
police force independently and basic services were returned.
    Additional military units headed to Baghdad--namely the 
First Armored Division based in Germany--were intended to 
replace the Third Infantry Division and other units that fought 
the war, but Myers yesterday said only that they ``may'' 
replace units now in Iraq.
    Myers also said that other countries had offered troops to 
buttress the American presence. He declined to be specific and 
said that their ``exact disposition'' had not been determined.
    Myers' comments illustrated the problems facing the United 
States as it tries to put Iraq back on its feet without relying 
on either a lengthy American military occupation or recycled 
bureaucrats from Saddam Hussein's regime.
    The difficulty was made clear again yesterday when Iraq's 
U.S.-approved health minister resigned after questions were 
raised about his Baath Party pedigree.
    The new U.S. civilian overseer, former diplomat L. Paul 
Bremer, who arrived yesterday to take over the Office of 
Reconstruction and Humanitarian Assistance (ORHA) from retired 
Army Lt. Gen. Jay Garner, is facing his own housecleaning. 
Barbara Bodine, the State Department official overseeing the 
reconstruction of Baghdad, was reassigned after three weeks on 
the job, and at least five other senior members of the ORHA 
staff also will be returning home, a senior U.S. official said 
yesterday.
    In the Shiite holy city of Najaf, meanwhile, a tearful 
homecoming for the head of Iraq's largest opposition group came 
to an abrupt end last night when dozens of followers of a rival 
cleric shoved their way toward the balcony on which the newly 
returned leader stood, prompting his bodyguards to hurry him 
indoors for fear that he might be assassinated.
    The bright spot in the day was an announcement that U.S. 
forces had captured Dr. Rihab Rashid Taha, the British-trained 
microbiologist known as ``Dr. Germ'' for her work developing 
biological weapons for Hussein. U.S. officials also said they 
had seized the former chief of staff of the Iraqi armed forces, 
Ibrahim Ahmad Abd al-Sattar Muhammad al Tikriti, but a Pentagon 
official cautioned that his identity had not been verified.
    The abrupt resignation of the health minister, Dr. Ali 
Shinan--whom critics accuse of corruption and diverting medical 
supplies at the expense of poor Iraqis--underscored the first 
challenge for the U.S. rebuilding effort: figuring out how to 
restore services and chart a new course for Iraq without 
relying on former Baathist officials. The task is complicated 
by the fact that Baath Party membership was virtually a 
condition of employment for anyone who wanted a government job 
in the last three decades.
    ``We need to move humanitarian assistance,'' said the 
ORHA's Steve Browning yesterday after touring the 1,000-bed al 
Yarmouk Hospital. ``We need to move medical supplies. We need 
to get people back to work. We need to make salaries. We need 
to produce petrol. We need to produce electricity. We need to 
get the sanitation systems working.''
    The chaos in Najaf highlighted another obstacle to U.S. 
reconstruction efforts, a growing power struggle within Iraq's 
majority Shiite Muslim community. Since he returned to his 
homeland Saturday after 23 years in exile in neighboring Iran, 
Ayatollah Mohammed Baqr al Hakim, the head of the Supreme 
Council for the Islamic Revolution in Iraq, has repeatedly 
called for an end to the struggle for religious control that 
has emerged since Hussein's fall.
    The most visible instigator in this war for Shiite hearts 
and minds is Najaf cleric Moqtader al Sadr, the youngest son of 
Muhammad Sadiq al Sadr, a powerful marjah, or senior spiritual 
leader, who was slain by Hussein in 1999. Followers of the 
marjah and his son disrupted Hakim's homecoming at Grand Imam 
Ali Shrine yesterday, holding up posters and a painting of the 
senior Sadr, whose name they chanted as they beat their chests.

    Secretary Rumsfeld. Could I comment on that?
    Senator Byrd. Oh, yes. How much time do I have?
    Senator Stevens. About 3\1/2\ minutes, sir. It depends on 
when the Secretary wants to leave.
    Senator Byrd. Oh, he is in no hurry to leave.
    He is in a fighting mood, I can see that.
    Secretary Rumsfeld. Senator, let me comment on that 
article, from whatever paper it was. Because something is in 
the press, of course, does not make it so.
    Senator Byrd. The Philadelphia Inquirer.
    Secretary Rumsfeld. Right. Now, first of all, just some 
facts. Number one, he was not sent out there as part of a 
shakeup. He was sent out there as presidential envoy. He was 
not sent out there to replace Mister--General Garner as head of 
the Office of Reconstruction and Humanitarian Assistance. He 
was sent out there as a presidential envoy.
    The individual you mentioned who was reassigned had not 
been there 3 weeks. I can remember seeing her in December or 
January, which is months ago, when I visited their office in 
the Pentagon, and then again when I saw them off in the parking 
lot of the Pentagon to see them away, which was in I believe 
December or January. So it is a lot more than 3 weeks.
    There are a number of things in that article with which I 
would differ.

                      NUCLEAR CAPABILITIES IN IRAQ

    Senator Byrd. For months, Mr. Secretary, the administration 
warned of the potential nuclear capabilities of Iraq. Indeed, 
one of the main justifications for U.S. action in Iraq was to 
ensure that nuclear weapons and material did not fall into the 
hands of terrorists. It has been widely reported that U.S. 
troops in Baghdad have secured some buildings, including the 
oil ministry. But according to a story in the Washington Post 
on May 10, our forces failed to prevent looting at seven 
nuclear facilities.
    I quote from the article: ``It is not clear what has been 
lost in the sacking of Iraq's nuclear establishment, but it is 
well documented that looters roamed unrestrained among stores 
of chemical elements and scientific files that would speed 
development in the wrong hands of a nuclear or radiological 
bomb. Many of the files and some of the containers that held 
radioactive sources are missing.''
    The administration argued that war against Iraq was 
necessary to prevent the spread and development of nuclear 
weapons, and yet by failing to protect these sites we may have 
actually facilitated the spread and development of nuclear 
weapons. I understand the importance of protecting the oil 
ministry so that the daily running of Iraq could continue. But, 
given that one of the reasons for invading Iraq was to prevent 
the spread of nuclear materials and capabilities, why were 
these sites not protected, Mr. Secretary?
    Secretary Rumsfeld. Senator, I do not believe anyone that I 
know in the administration ever said that Iraq had nuclear 
weapons. So the statement I think you read, that we have warned 
of potential nuclear capability and weapons and materials in 
the hands of terrorists, in terms of their having them now I do 
not know anyone who suggested that that was the case.
    The Central Intelligence Agency I know has assessed that 
they had a nuclear program and assessed that they had chemical 
and biological weapons, a slight difference from the article.

                  LOOTING IN IRAQ AND PROTECTING SITES

    As to looting, my understanding is that a number of sites 
were located by U.S. forces, coalition forces, on the ground, 
they were looked at and a judgment was made that they should go 
to a different site and look at those other sites. In some 
cases, before they got there things were looted. In some cases, 
possibly after they got there and went to another site things 
may have been looted.
    It is not possible to have enough forces in a country 
instantaneously to guard every site before somebody can get 
into it. I do not know about the choice between the oil 
ministry and some site that that article may be referring to. I 
do know that they had a lot of tasks to do. They had to win the 
war, they had to deal with death squads of Fedayeen Saddam, 
they had to deal with Baath Party members in civilian clothes 
that were trying to kill them, and all in all I think they did 
a darn good job.
    We have no evidence to conclude, as that article suggests 
might have happened, that, in fact, nuclear materials did leave 
and get into the hands of people. I do not have evidence that 
it did or did not. That is the best I can do.
    Senator Byrd. Why was protecting these well-known nuclear 
facilities not at least as high priority as protecting the oil 
ministry?
    Secretary Rumsfeld. My impression is from what I know, and 
I would have to check, that a number of sites were protected. 
There are something like at the present time--the number 
changes every month or every week, but I believe there are 
something like 578 suspected weapon of mass destruction sites. 
What does that mean? Does it mean they are all sites where 
something--no, it just means that there was a scrap of 
information here that suggested that somebody might have been 
doing something there and you ought to check it out.
    But there are hundreds of these possible sites. We also 
have intelligence that suggested that they took the 
documentation and a number of the materials, dispersed them and 
hid them, in some cases in private residences. So how does any 
force of any size instantaneously get to all of those locations 
and provide perfect security for them so someone cannot loot 
them? I think it is an unrealistic expectation.
    Senator Stevens. Senator, I am sorry. I have got a bunch of 
appointments and we guaranteed the Secretary we would be 
through here at 12:30. He has, as I understand it, to go to the 
White House for a meeting. So with your cooperation, I would 
like to let him go.
    Senator Byrd. Is this a filibuster you are shutting off?
    Senator Stevens. No. You are not filibustering yet, 
Senator. I have seen you filibuster. This is not that.
    Senator Byrd. Well, we will be talking with the Secretary 
again. Thank you. Thank you, Mr. Secretary.
    Secretary Rumsfeld. Thank you, sir.
    Senator Stevens. We appreciate your cooperation.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Byrd. Mr. Chairman, may I ask unanimous consent 
that the article from the Washington Post of Tuesday, May 13, 
entitled ``Baghdad Anarchy Spurs Call for Help,'' that it be 
included in the record in its entirety?
    Senator Stevens. It will be.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted by Senator Thad Cochran

                         THE HURRICANE HUNTERS

    Question. Secretary Rumsfeld, I understand the Hurricane Hunters 
based at Keesler Air Force Base were recently deployed to the Pacific 
operating out of Elmendorf, Alaska in support of Winter Weather 
Reconnaissance missions for the National Centers for Environmental 
Prediction. Similarly, a detachment of the Hurricane Hunters was 
recently deployed to Guam to perform weather reconnaissance in support 
of current operations. Can you provide the Subcommittee with an update 
on their deployment and the unique capability the Hurricane Hunters 
provide to our ability to predict weather around the world?
    Answer. Pacific Air Forces requested weather reconnaissance 
assistance to cover the period of transition between the failing Geo-
stationary Meteorological Satellite GMS 5 and its replacement by the 
Pacific Geo-stationary Operational Environmental Satellite GOES 9. 
During the satellite transition, contingency bomber and fighter forces 
were also deployed to Anderson AFB, Guam in support of Pacific Command 
(PACOM) requirements. In order to ensure optimum utilization of the air 
assets, since the deployment coincided with the typhoon season, WC-130 
aircraft and personnel from the 53rd Weather Reconnaissance Squadron 
(WRS) were requested and subsequently deployed to Guam. The WC-130 
capability filled the gap and performed the needed mission admirably. 
Shortly after the departure of contingency bomber and fighter forces, 
the 53rd WRS redeployed from Guam on 6 June 2003.
    Their presence allowed PACOM to operate in the Pacific area of 
responsibility while avoiding inadvertent typhoon evacuation of the 
bomber and fighter forces, enhancing the ability to maintain needed 
force presence and deterrence throughout the contingency. The unit was 
deployed for approximately 30 days and performed over 100 hours of 
tropical cyclone reconnaissance providing weather forecast centers 
world-wide (Joint Typhoon Warning Center, National Center for 
Environmental Prediction, Air Force Weather Agency, Fleet Numerical 
Meteorology and Oceanography Center, United Kingdom Meteorology Center, 
and others) with previously unavailable data over the western Pacific 
ocean.
    The WC-130 aircraft and crews provide a unique capability to gather 
meteorological data from remote and over water locations from the 
surface up to the operational capabilities of the aircraft, 30,000 feet 
or so. They accomplished this by collecting information from the 
aircraft's special instruments called dropsondes and by airborne 
meteorological observations. The dropsondes collect wind direction and 
velocity, pressure altitude, air temperature, relative humility and 
position every one-half second as it descends by parachute.
    Initial assessments of WC-130 data seem to indicate an enhanced 
ability to determine tropical cyclone location and forecast tracks in 
three separate storm events. WC-130 data fixed storm locations by as 
much as 80NM from satellite-derived storm locations. Data from the WC-
130 missions increased definition of developing storm characteristics 
and intensities (not well defined by satellite coverage). The WC-130 
data provided relevant and accurate information to military decision 
makers. A comparison study is now underway to determine how and to what 
degree WC-130 data improved overall typhoon model forecasts for the 
area of responsibility. The technical data will be assessed and 
reported through United States Pacific Command upon completion.

            NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Question. Secretary Rumsfeld, as part of the fiscal year 2004 
budget process, I understand you have approved an initiative to 
transfer the weather reconnaissance mission presently performed by the 
Hurricane Hunters from the Department of Defense to the National 
Oceanic and Atmospheric Administration (NOAA). Considering recent 
deployments directly supporting current military operations, I am 
concerned with the ramifications of this proposed transfer. How will 
the military support missions be performed if this weather 
reconnaissance mission is transferred to NOAA?
    Answer. The recent deployment of the 53rd Weather Reconnaissance 
Squadron (WRS) at Keesler Air Force Base, Mississippi is the only 
instance of unit activation for military weather support since the 
mission transferred from the active component to the Air Force Reserve 
in August of 1990. Currently, there is no equivalent military 
capability that exists to conduct the military weather mission 
performed by the 53rd WRS.
    After the weather reconnaissance mission is transferred to the 
National Oceanic and Atmospheric Administration (NOAA), there are two 
separate and distinct ways for the Department of Defense to achieve 
this type of weather reconnaissance support. First, if the President 
declares the situation a national emergency, he has the power to 
transfer resources and officers from NOAA to the Department of Defense. 
This is provided in 33 USC 3061. The second way is to request NOAA to 
perform the mission within their resources without being mobilized. 
This second process could be outlined in the construct of the 
memorandum of agreement for the mission transfer.

                                  UAVS

    Question. Secretary Rumsfeld, when General Myers last appeared 
before this Subcommittee, he referred to the need for persistent, long-
loiter intelligence, surveillance and reconnaissance (ISR) platforms. 
Unmanned Aerial Vehicles such as Global Hawk have proven to be 
extremely valuable to our operations. Are we moving fast enough to 
procure systems such as Global Hawk and other necessary UAV systems?
    Answer. During Operation Iraqi Freedom, the Department deployed 
over 10 different UAV systems to support military operations. This was 
the widest use of UAVs in any operation to date; they not only provided 
persistent surveillance and broad area search but also target 
identification and designation for weapons employment plus battle 
damage assessment following a strike. UAVs were even, themselves, 
strike platforms; Predator flew in an armed reconnaissance role with 
Hellfire missiles engaging and destroying a number of tactical targets. 
Global Hawk also showed its ability to provide persistent surveillance. 
A single prototype flew over 350 hours in direct combat support and 
located over 300 Iraqi tanks, about 38 percent of all the known armor 
assets of Iraq military. We are procuring Air Force Global Hawk and 
Predator UAVs at about the right pace when the additional components of 
communications, command and control and training are included.
    Question. Secretary Rumsfeld, when General Myers last appeared 
before this Subcommittee, he provided testimony indicating the 
establishment of NORTHCOM has significantly improved the preparedness, 
responsiveness and integration between the U.S. military and other 
federal agencies defending the homeland. Considering this integration 
between the military and the Homeland Security Agency, do you believe 
integration would be enhanced if the military and the Homeland Security 
Agency used common UAV platforms, such as Global Hawk, in their 
operations?
    Answer. The Department of Defense and the Department of Homeland 
Security, at the request of Senator Warner, Chairman of the Senate 
Armed Services Committee, are jointly examining the potential utilities 
of unmanned aerial vehicles for homeland security missions. When the 
examination is completed, the results will also be provided to the 
Subcommittee.
    Question. Secretary Rumsfeld, I understand the budget request 
contains funding for one LPD-17 amphibious ship in fiscal year 2004, 
but no LPD in fiscal year 2005; this appears to be an inefficient 
program profile. Admiral Clark and General Hagee have both indicated 
that they could use that ship sooner than later. Can you share your 
thoughts on the LPD-17 program profile and requirements?
    Answer. Yes. This is not an issue of when we need the ships but 
rather one of balancing requirements with limited resources in view of 
industrial base and program realities. I believe that everyone agrees 
that replacing the LPD-4 class earlier rather than later is a good 
thing. However, during last year's budget review, the Navy concluded 
that leaving a gap year in fiscal year 2005 was appropriate for the 
time being because insufficient production data was available to 
justify adding more LPD-17 workload. Significant design problems led to 
a number of delays and cost increases--a Nunn-McCurdy cost breach--up 
to that point. They had four ships on contract with the lead ship still 
in early production and virtually no construction completed on the 
other three--and plans to award a fifth ship in the second half of 
fiscal year 2003. In short, the Navy had a lot of ships on contract or 
committed with no empirical data that proved the LPD-17 production 
schedule was back on track. Since the gap was an fiscal year 2005 
issue, they had another opportunity to revisit the issue and make 
adjustments with the benefit of more production data. I reviewed the 
Navy's plan and I agreed with their approach.
    My understanding today is that production on the LPD-17 is 
progressing well and that the design is proving to be stable. As a 
result, the Navy has made this issue a priority as part of their 
program/budget review process. I also intend to conduct a thorough 
review of this issue this fall as the Department finalizes the fiscal 
year 2005 budget.
    Question. Secretary Rumsfeld, as you know, and have known for 
several years now, the current rate of shipbuilding is not sufficient 
to meet the established goal of a 375-ship Navy. In fact, it will fall 
far short of even a 310-ship Navy, and require enormous investment in 
the out years simply to catch up. If more funding were available for 
shipbuilding, how could it be most effectively spent in the near term?
    Answer. Because of industrial base reasons and the fact we are in a 
transition period in shipbuilding--at the end of the production of DDG-
51 and at the beginning of several new ship classes--more funding added 
to shipbuilding in fiscal year 2004 would not be prudent. We currently 
have DDG-51s, LPD-17s, and T-AKEs already on contract or budgeted in 
sufficient numbers to load the shipyards to their capacities. Adding 
additional funds to put more ships on contract will not result in ships 
being built earlier. Similarly, the long lead-times and the limited 
industrial base for nuclear components preclude the possibility to 
increase Virginia class submarine production before the fiscal year 
2007 timeframe. And finally, the kind of ships we need to start 
building (and in large numbers for some) to cope with the threats of 
the 21st century--DD(X), LCS, MPF(F), CVN-21 and LHA(R)--simply are not 
yet ready for production.
    Question. Secretary Rumsfeld, I understand you would like to 
consolidate the Active, National Guard and Reserve Military Pay 
Accounts into one Account that would be managed by the Active 
components. Do you think that we can make a significant change like 
this without jeopardizing the integrity of the Guard and Reserve 
Military Pay Accounts?
    Answer. I have proposed the consolidation of 10 Military Pay 
appropriation accounts into 4. However, I have not proposed that the 
consolidated accounts be managed by the Active components. The 
consolidation does not affect the Military Services Title 10 
responsibilities. Further, I don't see the consolidation as threatening 
the integrity of the Guard and Reserve Military Pay Accounts at all. 
The revised structure consolidates all Guard and all Reserve funding 
into single budget activities (one for the Reserves and a separate one 
for the Guard). The consolidation of personnel appropriations is 
designed to streamline and optimize funds management and eliminates the 
need to reprogram funds within the Reserve Components by eliminating 
the $10 million reprogramming threshold currently imposed on Reserve 
Component programs. The new structure merges the existing two budget 
activities for the Reserve and National Guard Personnel funding into 
one budget activity for each Reserve Component. Over time, the Reserve 
Components' evolving role has made the two budget activities less 
meaningful and executable.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison

    Question. What have you learned from the mobilization of the 
reserve component for Operations Enduring Freedom and Iraqi Freedom? 
Where do you need to improve and what do you need to do it?
    Answer. The force structure and the timing of the use of the 
Reserve Components need adjustment. Due to post Viet Nam adjustments 
and the ``Peace Dividend'' of the 1990's many military capabilities 
necessary to prosecute military actions of modest scale were placed 
entirely or predominately within the Reserve Components. This limits 
the flexibility necessary for the use of military force in a post cold 
war environment, particularly in the war on terrorism.
    Force structure and the timing of the use of the Reserve Components 
are both under review. Active/Reserve Component changes are up for 
revision (September 2003) with more to soon follow. Review of Operation 
Plans that contemplate the early use of Reserve Component forces is 
also under review, with Combatant Commanders tasked to review and 
revise their plans, reducing the necessity for early mobilization of 
the Reserve Components.
    Question. Do we have the right mix of skill sets in the active and 
reserve component? Do we need more troops in the active component?
    Answer. The mix of skill sets in the Active and Reserve Components 
is currently being examined in several forums. The Operational 
Availability Study, the OSD AC/RC Mix study, as well as individual 
Service studies are all looking at the right mix of Active and Reserve 
capabilities to ensure that the needs of the National Security Strategy 
are met through the key factors of availability, responsiveness, 
agility, and flexibility. The studies are ongoing, but initial results 
indicate some capabilities need to be addressed.
    I do not believe that additional active end strength is required to 
meet the national strategy. Instead, more progress needs to be made on 
distributing our skill mix to optimize our force capabilities within 
existing end strength.
    We will be examining the possibility of rebalancing capabilities 
within war plans and between the Active and Reserve Components. While 
recent mobilizations have highlighted shortages in certain capabilities 
that stressed Reserve forces, there are multiple solutions to address 
those issues.
    In addition, over 320,000 military manpower spaces have been 
identified as performing duties in specialties or situations that can 
potentially be performed by other kinds of personnel. I have directed 
my staff to conduct an in-depth review of these positions to determine 
how many can be reasonably converted to civilian performance, thus 
freeing military manpower to meet our most pressing demands. 
Application of a variety of actions including innovative management 
techniques for the Reserves will maximize the efficiency of our 
existing forces and may therefore require very little changes to 
existing force structure.
    Question. Should U.S. Forces be based overseas in new locations to 
better train and respond to today's threats? What is the right level of 
troop strength overseas?
    Answer. Both these questions are under intense review by the 
Department. These are exactly the kind of new assessments we must do to 
take account of everything we know about 21st century threats.
    Question. Were more private contractors (and contractor employees) 
involved with Operation Iraqi Freedom than Operation Desert Storm? 
(Please provide as exact count as possible for each category.) How were 
private contractors used? What impact does the use of private 
contractors on the battlefield have for Transformation?
    Answer. Contracting for these services was done by a wide variety 
of Civilian Agencies, Defense Agencies, Military Departments and 
individual military commands. In addition, contracts and orders under 
existing contracts for support to deployed forces covered effort both 
in the country of operations and at other locations including the 
United States. At present there is no unique identifier in the 
contracts data system to allow for identification of an effort to a 
particular military deployment. Therefore, it is not possible to 
develop this data without having the Military Departments conduct a 
long and expensive manual data call.
    Contractors were used to provide the following services: laundry 
and bath facilities; clothing exchange and repair; food service; 
mortuary affairs; sanitation services; billeting/facilities management; 
moral, welfare and recreation facilities; information management; 
personnel support; maintenance; transportation; medical services; 
engineering and construction; signal support; power generation and 
distribution; automation operations; and physical security.
    The use of contractors on the battlefield is not new. The military 
has always used contractors to support its operations. The military 
will continue to use contractors to obtain capacity that the military 
does not possess, to facilitate faster movement into an area of 
operations, to reduce soldier OPTEMPO or deployment time, and to 
maximize combat forces when force size is constrained. Where these 
issues arise during the transformation process, the use of contractors 
will be one tool available to resolve the issue.

                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye

    Question. What funds from the fiscal year 2003 Supplemental 
Appropriations Act have been obligated to date? What is the timeline to 
distribute the remainder of the funds provided in the Supplemental, and 
how much of the Supplemental do you estimate will be carried over into 
fiscal year 2004?
    Answer. As of May 30, 2003 total obligations from funds made 
available in fiscal year 2003 for the Global War on Terrorism and 
Operation Iraqi Freedom totaled $31,243 million. It is projected that 
approximately $4 billion of the $62.6 billion appropriated in the 
fiscal year 2003 Supplemental will be obligated in the early part of 
fiscal year 2004.
    Question. What are the Department's total cost projections in 
fiscal year 2004 for keeping troops in support of Operation Iraqi 
Freedom or any subsequent missions in Iraq? In the President's pending 
budget request for fiscal year 2004 sufficient to cover these costs?
    Answer. A drawdown of troops in support of Operation Iraqi Freedom 
is currently underway. I expect the drawdown will continue through the 
middle of the next fiscal year. Presently, CENTCOM's stability 
operations plan for Iraq is still evolving because of the dynamic 
environment inside the country, and may require a significant presence 
of our forces. The numbers of troops and pace of demobilization not yet 
been finalized. Therefore, the cost of supporting Operation Iraqi 
Freedom troops has not yet been determined. The President's pending 
budget request does not specifically include funds to support Operation 
Iraqi Freedom troops. During fiscal year 2004 we will assess our 
funding requirements and determine the means by which we can finance 
Operation Iraqi Freedom costs. It remains my goal to reduce the numbers 
of deployed troops as quickly as possible, while at the same time not 
jeopardizing our commitment to Operation Iraqi Freedom and the Global 
War on Terrorism.

                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

                      DEPLOYMENT OF NATIONAL GUARD

    Question. My office has heard reports that the 157th Military 
Police Company of the West Virginia National Guard has been deployed 
almost continuously since September 11 attacks, and has recently 
shipped out for a six-month deployment overseas. While the members of 
this unit are proud to serve their country, and they have served both 
in our homeland and around the world with great distinction, their 
families are increasingly being strained by what seems like a 
neverending string of mobilizations for citizen-soldiers.
    Secretary Rumsfeld, what steps are being taken to minimize the 
back-to-back deployments of members of the Reserves and the National 
Guard?
    Answer. I signed out a letter on July the 9th to the Secretaries of 
the Military Departments, the Chairman of the Joint Chiefs of Staff, 
and the Under Secretaries of Defense directing them to rebalance the 
forces. In that letter I enumerated three principal objectives that I 
wanted to achieve:
  --Structure active and reserve forces to reduce the need for 
        involuntary mobilization of the Guard and Reserve, and 
        structure forces to limit involuntary mobilization to not more 
        than one year every six years.
  --Establish a more rigorous process for reviewing joint requirements; 
        ensuring force structure is appropriately designed.
  --Make the mobilization and demobilization process more efficient.
    I levied actions that I expect to be completed, and an aggressive 
set of milestones for the responses. I assure you that I am as 
concerned as you are and will strive to ensure the continued judicious 
and prudent use of our valuable Guard and Reserve forces.
    Question. Congress enacted a $100-per-day extended deployment pay 
in 1999 to encourage shorter tours for our military personnel. This pay 
was suspended shortly after the September 11 attacks. Does your budget 
request contain any compensation to help Service members and their 
families who experience back-to-back deployments? Will these proposals 
help the families of those who have been deployed since September 11, 
2001, or will the compensation only apply to future deployments?
    Answer. The Department submitted a proposal for the fiscal year 
2004 Authorization Bill that would compensate members for both 
excessively long deployments and frequent deployments, with 
compensation at an appropriate scale. The proposal also includes Guard 
and Reserve members who have been called up for more than 30 days for a 
second time in support of the same contingency operations. Both the 
Senate and House Armed Services Committees have similar PERSTEMPO Pay 
provisions in their respective fiscal year 2004 authorization bills.
    The Military Departments did not project funding in the fiscal year 
2004 budget for this payment since the current National Security waiver 
allows the SECDEF to suspend PERSTEMPO payments during a National 
Emergency. The Department is committed to paying qualified members 
PERSTEMPO pay once the National Security waiver is lifted.
    The Military Departments are also working initiatives to lessen the 
adverse impacts of high individual TEMPO. Those initiatives focus on 
providing predictability in deployments; optimizing time required for 
pre-deployment training work-ups and post-deployment maintenance; and 
implementing organizational initiatives, such as the Air Force 
Aerospace Expeditionary Forces.

                            MANAGEMENT PLANS

    Question. The OMB scores agencies on how well they comply with the 
President's Management Agenda. Agencies are encouraged to submit 
management plans to the OMB, and to meet the competitive sourcing 
targets outlined in the President's budget. The OMB has informed me 
that these plans, while submitted to the OMB for approval, can be 
released to the public at the discretion of the agency heads.
    If the Congress is to appropriate $380 billion to the Defense 
Department to employ 636,000 civilians and 2.4 million military 
personnel, I expect that you would first provide the Congress with a 
copy of any management plan or competitive sourcing plan that the 
Defense Department submits to the OMB.
    Secretary Rumsfeld, when do you expect to submit your next 
management plan to the OMB, and how soon can you make that plan 
available to the Appropriations Committee?
    Answer. OMB will receive the competitive sourcing management plan 
with the fiscal year 2005 budget. OMB must approve the submission, 
which will then be included in the President's budget submission.

                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

                  WEAPONS OF MASS DESTRUCTION IN IRAQ

    Question. Secretary Rumsfeld, before the war, we all read the 
assessments that Iraq possessed large stocks of weapons of mass 
destruction and that the military was prepared to use them in the event 
of attack. Thankfully, no attacks were made against our forces, but we 
still have not been able to locate any of these weapons stocks. Has DOD 
completed an intelligence assessment of why these predictions proved 
incorrect? Can the department provide the Committee with a detailed 
briefing about these reviews? Additionally, can you provide the 
Committee with a detailed briefing about the possibility that some of 
these weapons of mass destruction have fallen into the hands of forces 
hostile to us?
    Answer. DOD continues to investigate the extent of Iraq Weapons of 
Mass Destruction programs and stockpiles. The Iraq Survey Group has 
been established to coordinate the search for WMD in Iraq. In late 
July, the Intelligence Community provided to Congress every publication 
from 1992 to the present on Iraqi WMD programs and on its threat 
assessments. Additionally, numerous Intelligence Community and DOD 
officials have been to brief or testify before Congress on this issue.

                                  IRAQ

    Question. Secretary Rumsfeld, I am told that the contract with 
Kellogg Brown & Root on fixing Iraqi oil facilities is classified. 
Giving a major contract in secrecy to a company with close ties to the 
administration will only increase suspicions of those inclined to think 
we are in Iraq to benefit American companies rather than the Iraqi 
people.
    Why is the contract with Kellogg Brown & Root classified (if that 
is correct)?
    Answer. The contract with Brown & Root Services, a division of 
Kellogg, Brown & Root (KBR), was awarded March 8, 2003, to support the 
DOD mission of repair and continuity of operations of the Iraqi oil 
infrastructure. The contract was classified because it was issued 
before the war started, when the mission was classified because the 
planning and limited activities being undertaken had to be integrated 
with CENTCOM's military planning for the war effort. This included 
plans for military action to protect parts of the oil infrastructure 
against potential sabotage in the event of war. Disclosure, before the 
commencement of hostilities, of plans to repair and maintain continuity 
of oil operations would have run a serious risk of compromising the 
related military planning activity. Additionally, the contractor for 
repair and continuity of operations had to be ready to commence work 
immediately upon notice to proceed, but it was not known in advance 
when the commencement of work might be required, since that would 
depend on the timing of the military campaign and how events unfolded 
on the ground as the campaign progressed. Therefore, it was not 
possible to award an unclassified contract prior to hostilities without 
jeopardizing the success of the mission.
    On March 6, 2003, the Department declassified only the fact that it 
had plans for extinguishing fires and assessing damage to oil 
facilities in Iraq. The fact that the Department was planning for the 
possibility that it would need to repair and provide for continuity of 
operations of the Iraqi oil infrastructure remained classified until 
March 22, 2003. This prevented earlier acknowledgement or announcement 
of potential requirements to the business community.
    The government's strategy has been to compete the execution effort 
at the earliest reasonable opportunity consistent with the needs of the 
mission. The declassification of the mission has enabled the Department 
to plan a full and open competition in which the U.S. Army Corps of 
Engineers will solicit competitive proposals to provide the broad range 
of services that may need to be performed to support this mission in 
the months ahead. The contracts awarded as a result of this competition 
will replace the contract now in place with KBR.
    Question. How many other contracts addressing reconstruction in 
Iraq are classified, and what is the total potential value of those 
contracts?
    Answer. Contracts or task orders supporting the DOD mission of 
repair and continuity of operations of the Iraqi oil infrastructure 
were classified because they were issued before the war started, when 
the mission was classified because the planning and limited activities 
being undertaken had to be integrated with CENTCOM's military planning 
for the war effort. This included plans for military action to protect 
parts of the oil infrastructure against potential sabotage in the event 
of war. Disclosure, before the commencement of hostilities, of plans to 
repair and maintain continuity of oil operations would have run a 
serious risk of compromising the related military planning activity. 
Additionally, the contractor for repair and continuity of operations 
had to be ready to commence work immediately upon notice to proceed, 
but it was not known in advance when the commencement of work might be 
required, since that would depend on the timing of the military 
campaign and how events unfolded on the ground as the campaign 
progressed. Therefore, it was not possible to award an unclassified 
contract prior to hostilities without jeopardizing the success of the 
mission.
    On March 6, 2003, the Department declassified the fact that it had 
plans for extinguishing fires and assessing damage to oil facilities in 
Iraq. The fact that the Department was planning for the possibility 
that it would need to repair and provide for continuity of operations 
of the Iraqi oil infrastructure was classified until March 22, 2003. 
This prevented earlier acknowledgement or announcement of potential 
requirements to the business community.
    The contractual actions related to the oil infrastructure mission 
are as follows:
  --Planning Effort--done under a Task Order issued November 11, 2002, 
        under the Army's Logistics Civil Augmentation Program (LOGCAP) 
        contract. The value of the task order is approximately $1.8 
        million.
  --Pre-positioning Effort--done under a letter contract issued 
        February 14, 2003. The value of the letter contract is $37.5 
        million.
  --Continued Pre-positioning, and subsequent Execution Effort--done 
        under a contract awarded March 8, 2003. As of May 27, 2003, 
        five task orders had been placed under this Indefinite 
        Delivery/Indefinite Quantity (ID/IQ) contract. The first four 
        task orders are classified since they were issued prior to 
        March 22, 2003. The fifth task order, issued May 4, 2003, is 
        unclassified. The total estimated cost of the five task orders 
        placed under that contract was, as of May 27, 2003, 
        $184,786,000. The total value of the contract will be the sum 
        of the values of the orders placed under it. Since assessments 
        of the condition of the infrastructure are still being done, it 
        is not possible to predict with precision all work that will be 
        required to complete the mission. The ID/IQ contract enables 
        the government to obtain the services it needs once specific 
        requirements are identified. The Corps of Engineers will limit 
        orders under this contract to only those services necessary to 
        support the mission in the near term.
    The government's strategy has been to compete the execution effort 
at the earliest reasonable opportunity consistent with the needs of the 
mission. The declassification of the mission has enabled the Department 
to plan a full and open competition in which the U.S. Army Corps of 
Engineers will solicit competitive proposals to provide the broad range 
of services that may need to be performed to support this mission in 
the months ahead. The contracts awarded as a result of this competition 
will replace the contract now in place with KBR, and task orders will 
then be issued under the competitively awarded contracts.
    Question. Do we know whether Iraqi WMD have been given to terrorist 
groups since the war began?
    Answer. There is no credible indication former regime members have 
provided chemical, biological, radiological or nuclear weapons or 
components to terrorist organizations since the war began.
    Question. How long will it take to search for WMD in Iraq? When 
will we know the extent of WMD in Iraq before the war?
    Answer. On both questions, it is impossible to predict. However, I 
am confident that we indeed will find evidence of prohibited activity 
related to weapons of mass destruction.
    Question. The International Atomic Energy Agency (IAEA) under the 
Nuclear Nonproliferation Treaty has the responsibility to ensure 
nuclear materials in Iraq are safeguarded and the right to inspect 
nuclear facilities. When will you let IAEA inspectors back in?
    Answer. All of Iraq's nuclear material under NPT safeguards is 
located at the Baghdad Yellow Cake Storage Facility (Location C). From 
June 7 to 23, 2003, the IAEA conducted a Physical Inventory 
Verification (PIV) inspection of Location C with support from Coalition 
forces. All of the proliferation sensitive and virtually all of the 
other material subject to NPT safeguards was accounted for. Location C 
has been resealed, and its perimeter is being guarded by U.S. military 
forces. What has been referred to as ``looting'' at this site appears 
to have been limited to the theft of items such as steel barrels or 
furniture, not nuclear material.
    Pursuant to U.N. Security Council Resolution 1483, the Coalition 
Provisional Authority is responsible for the disarmament of Iraq.

                            MISSILE DEFENSE

    Question. You plan to field a limited ground-based mid-course 
missile defense system by the end of 2003-2004.
    When do you plan to begin operational tests on this system?
    Answer. In January 2003, the President decided to capitalize on the 
demonstrated capabilities of the GMD element. His decision to allow 
concurrent defensive capabilities and continuing developmental testing 
is the basis for the Initial Defensive Capability (IDC) planned for 
September 30, 2004.
    MDA has established a joint organization, the Combined Test Force 
(CTF), to integrate the objectives of the operational tester--the 
warfighter--and the user into all developmental activities. Planning 
for formal operational testing continues; however, no final decision 
has been made regarding when to begin such testing.
    Question. When do you plan to test this system at night? When do 
you plan to test the system against a tumbling target? When do you plan 
to do a test with one or more decoys that resemble the target?
    Answer. Integrated Flight Test-10 (IFT) was planned to be a 
nighttime intercept; however, the EKV failed to separate from the 
booster, and an intercept was not attempted. MDA is currently looking 
at revising a future flight test to make up this missed IFT-10 
objective.
    GMD flight test complexity continuously increases as additional 
functionalities are added. Target signatures, countermeasures, and 
flight dynamics are in concert with the current threat estimates.
    Question. When do you plan to test the system against a target 
without a beacon or GPS transponder? When do you plan to test the 
system without advance target trajectory and characterization 
information?
    Answer. The beacon is one of several artificialities to be deleted 
from the test program as the system matures and additional elements 
come on line. The actual point in the test program at which beacons or 
GPS data will no longer be used has not yet been determined. The C-Band 
beacon is currently required for range safety and truth data purposes 
until the various system radars are fully developed. Due to the lack of 
an X-Band Radar (XBr) or Upgraded Early Warning Radar (UEWR) in the mid 
Pacific, target RVs in current flight tests are equipped with a C-Band 
beacon which is tracked by the FPQ-14 range radar in Hawaii to generate 
the weapons task plan and to give the interceptor a box in space at 
which to aim. The flight test program to date has focused on proving 
and refining hit-to-kill technology, the cornerstone of GMD's mission. 
Providing the exoatmospheric kill vehicle (EKV) with target trajectory 
and characterization information in advance allows us to develop this 
essential capability without having to wait until necessary BMDS radars 
and other sensor are in place. The GMD flight test program is 
constantly under review and evolving as we gain more experience and 
knowledge.
    IFT-21 is planned to be a ``pop quiz'' test. Current plan for IFT-
21 is to withhold the exact launch time until the day of test. 
Additionally, the target type will be known, but the target complex 
will not be known a prior; however, all components in the complex will 
have been previously characterized and flown in a flight test.
    It is important to note however, that, in the event of a hostile 
missile launch, the BMDS will have targeting information in real time. 
The Block 2004 system will have hostile missile launch early warning 
and cueing from space-based infrared satellites. The predicted time and 
location in space where the intercept will occur is calculated in real-
time from data provided by tracking radars (i.e., Cobra Dane, Upgraded 
Early Warning Radars, the Navy's Aegis cruisers and destroyers, and the 
Sea-Based X-band radar). Based on this real-time information, targeting 
data is selected from a database and uploaded to the interceptor prior 
to launch.
    Question. Will any of these tests occur before deploying the 
system?
    Answer.
    Re: operational tests (OT).--Formal OT will not occur before 
September 30, 2004.
    Re: night test.--MDA is currently examining this issue and hopes to 
include this objective in an upcoming flight test.
    Re: decoys that resemble the target.--Target signatures, 
countermeasures, and flight dynamics are in concert with the current 
threat estimates.
    Re: without C-Band transponder & GPS.--The C-Band beacon is 
currently required for range safety purposes and truth data, and as 
such, it cannot be eliminated from testing; however, it is one of the 
artificialities that will be removed by development and construction of 
the BMDS Test Bed.
    Re: without advance target trajectory and characterization 
information.--No. IFT-21, the first pop quiz, is currently scheduled 
for 2Q fiscal year 2006.
    Question. When will the X-band radar be operational? When will the 
SBIRS-Low and SBIRS-High be operational? How will the missile defense 
system track and discriminate targets without these key components?
    Answer. The Sea-Based X-Band Radar (SBX) will be integrated into 
the Block 2004 BMDS Test Bed during 4Q fiscal year 2005.
    SBIRS Low [renamed Space Tracking and Surveillance System (STSS)] 
is an R&D effort to demonstrate the value of midcourse tracking to the 
BMDS. No decision to field an operational system has been made. The 
first two R&D satellites will be field in fiscal year 2007 to support 
the Block 2006 test bed and demonstrate closing the fire control loop 
with BMDS interceptors.
    Please note SBIRS-High is a USAF program. The following response 
has been provided from USAF. The SBIRS-High development will field 
incremental increases in military utility for each of its mission 
areas--missile warning, missile defense, technical intelligence, and 
battlespace characterization. SBIRS supports MDA IDO requirements 
within the fiscal year 2005 BMDS need. Interim support will be 
available beginning October 4 and fully integrated support is scheduled 
to be in place April 2005. Major milestones related to certification of 
missile warning messages will be leveraged by SBIRS High missile 
defense supporting capabilities beginning with HEO certification in 
fiscal year 2005, GEO certification in fiscal year 2007, and multi-
satellite certification in fiscal year 2009. SBIRS-High will be fully 
capable at Increment 2 completion in fiscal year 2010.
    The critical functions to be performed by an XBR are to detect, 
acquire, track, and discriminate. Other radars--including the Cobra 
Dane at Shemya, Alaska; the Beale UEWR in California; and the Navy's 
Aegis--contribute to the performance of these functions to a greater or 
lesser degree. Discrimination is the function, which most depends on 
the XBR, but even this function is duplicated, specifically by the 
EKV's on-board sensors and computer. Even with a system including an 
XBR, the final discrimination and target selection will be performed by 
the EKV.

                   IOWA ARMY AMMUNITION PLANT (IAAP)

    Question. The fiscal year 2001 defense authorization bill and the 
fiscal year 2002 defense appropriation bill required the Department to 
determine exposures at the Iowa Army Ammunition Plant (IAAP) and to 
notify current and former employees of the Army side of the plant of 
possible exposures to radioactive or hazardous substances. The 
appropriations reports from those years funded a health study of Army 
workers at IAAP, including screening of all workers for chronic 
beryllium disease. A report dated August 20, 2002, from Deputy 
Secretary Paul Wolfowitz included a letter to the employees, and said 
that medical surveillance of former workers at IAAP should begin in 
December 2002.
    How many workers at IAAAP have been sent the required notification?
    Answer. None. The Army received the final version of the security 
release at our meeting May 23, 2003. When contacting the Department of 
Energy (DOE) cohort in December 2001 and January 2002, the Army 
included President Clinton and Secretary Richardson's release to speak 
regarding nonclassified issues. Through this process, the Army 
contacted 2,954 former DOE workers or survivors of workers for whom the 
Army had a known address. In conjunction with this mailing, the Army 
contacted an additional 7,786 employees we had assumed were DOD 
employees to give them an opportunity to indicate to us if they had 
worked on line 1. The Army has not yet sent out the Secretary of 
Defense security release notice signed by Mr. Wolfowitz. The Army is 
planning to send that out as a separate mailing along with our cover 
letter and work history questionnaire. Certainly anyone we contact by 
mail in the meantime will be given the notification.
    Question. What is the status of the health screening, including for 
chronic beryllium disease? What is the current timeline for the 
project?
    Answer. The American Institute of Biological Sciences review should 
take eight weeks. The Army will need to resubmit the revised protocol 
to the University of Iowa Institutional Review Board for review of the 
modifications.
    They may suggest a full board review, which could take a week to 
one month. Once approved, gearing up should go quickly. The Army 
anticipates starting screening of the current workforce of about 1,000 
at a rate of about 250 per month so it would take about four months. 
The Army predicts a late September or early October start date for 
screening. Concurrently we are pursuing access to the IH data to 
finalize the work/medical history questionnaire and get it in the mail 
to begin working with the former workers in March of 2004. The Army can 
screen former workers at a rate of 100 per month at startup. This 
screening of former workers can be ramped up depending on the total 
number to be screened and the extent of screening to be performed, all 
based on the protocol currently under review.
    Question. A recent report to Congress on cleanup activities at the 
IAAP suggested that only paperwork would take place this year 
(including important groundwater modeling), and said that further soil 
cleanup has been delayed due to insufficient funding. Contrary to a 
July 11, 2002, letter to me from Office of Management and Budget 
Director Mitchell E. Daniels, Jr., Phase 4 soil cleanup is not 
scheduled to be completed until 2004 and 2005, with further cleanup 
activities extended many years after that.
    What is needed to accelerate cleanup at IAAP? How much funding is 
needed to complete Phase 4 soil cleanup?
    Answer. The Army recently conducted a Program Review of the IAAP 
restoration program and concluded that the installation met several 
criteria that made it an ideal candidate for implementation of a 
performance-based contract strategy. We do not believe that we can in 
fact accelerate the work effort in fiscal year 2004. The conversion to 
a performance-based contract is planned to begin in fiscal year 2004 
and is expected to improve schedule implementation and control 
financial liabilities. The implementation of this new contract vehicle 
is fully expected to accelerate the work efforts once in place.
    The current planned funding level of $150,000 for fiscal year 2004 
will be sufficient to complete the Phase 4 soils effort. This 
information, of course, is based on what is currently known about the 
sites. Conditions may change once actual soil removal begins this 
fiscal year, however, substantive changes in cost are not expected.
    Question. Has inclusion of IAAP in the FUSRAP program delayed or 
accelerated cleanup of contaminants at the plant?
    Answer. The inclusion of IAAP in the FUSRAP has not delayed the 
cleanup of contaminants at the plant. Acceleration of the cleanup can 
be achieved if the FUSRAP cleanup execution schedule is concurred with 
by the regulators and stakeholders (USEPA Region VII project manager, 
Iowa Department of Health, and other concerned/interested 
stakeholders), and all the stakeholders work as a team to achieve the 
cleanup effort. Phase 4 and 5 soils clean up would have been delayed 
until fiscal year 2007 or fiscal year 2008 start date without FUSRAP 
designation.
    Question. You have proposed specific exemptions for the Department 
from several environmental laws. IAAAP is a Superfund site, and 
provides habitat for one known endangered species, but I have had 
trouble getting answers on the implications of your proposal for this 
plant.
    Would any of the exemptions you have proposed apply to part or all 
of the IAAP site?
    Answer. There are five proposals included in DOD's Readiness and 
Range Preservation Initiative. These five proposals are essential to 
range sustainment and reaffirm the principle that military lands, 
marine areas, and airspace that have been set aside for military use 
exist to ensure military preparedness, while ensuring that the 
Department of Defense remains fully committed to its stewardship 
responsibilities. The five provisions:
  --Authorize use of Integrated Natural Resource Management Plans in 
        appropriate circumstances as a substitute for critical habitat 
        designation under the Endangered Species Act;
  --Reform obsolete and unscientific elements of the Marine Mammal 
        Protection Act, such as the definition of ``harassment,'' and 
        add a national security exemption to that statute;
  --Modestly extend the allowable time for military readiness 
        activities like bed-down of new weapons systems to comply with 
        Clean Air Act;
  --Limit regulation of munitions on operational ranges under the 
        Comprehensive Environmental Response, Compensation, and 
        Liability Act (CERCLA) if and only if those munitions and their 
        associated constituents remain there, and only while the range 
        remains operational; and
  --Limit regulation of munitions on operational ranges under the 
        Resource Conservation and Recovery Act (RCRA) if and only if 
        those munitions and their associated constituents remain there, 
        and only while the range remains operational.
    Because IAAP provides habitat for one known endangered species, the 
Endangered Species Act proposal could apply if U.S. Fish and Wildlife 
Service were to propose any installation lands as critical habitat. The 
Marine Mammal Protection Act proposal is not applicable. The Clean Air 
Act proposal could apply to any new military readiness activities 
planned for IAAP in the future. The proposal would allow three years 
for those activities to meet the requirements of section 176(c) of the 
Clean Air Act. The CERCLA and RCRA proposals would apply to only 
operational ranges at IAAP.
    Question. Would your proposal remove part or all of the IAAP site 
from the Superfund program?
    Answer. No, Defense Department proposals for Readiness and Range 
Preservation would not remove IAAP from the Superfund Program. DOD's 
RCRA and CERCLA legislative proposals clarify when RCRA and CERCLA 
apply at the military's operational ranges. IAAP is addressing 
contamination from ammunition assembling operations, which is distinct 
from operational range activities.

                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin

                           932ND AIRLIFT WING

    Question. The Air Force is currently in the process of retiring the 
C-9 aircraft used for aero medical evacuation. Scott Air Force base has 
both an active and a Reserve wing, the 932nd Airlift Wing, which have 
carried out this mission.
    I am very concerned that C-9s will be retired and the Reservists' 
mission mostly disbanded. These Reservists have served for a many 
years, and are part of the community. Several hundred Reservists will 
be left with no mission, and they are unlikely to move to find another 
Reserve mission. I think our Reservists deserve better treatment.
    The statistics that I have seen show that the peacetime domestic 
aero medical evacuation mission has been reduced because TRICARE allows 
many military patients to be cared for at local medical facilities. 
Yet, even by the beginning of the war with Iraq, the C-9s were quite 
busy--the 932nd Airlift Wing has flown 70 percent of its flying hours 
over only 6 months of the fiscal year--as of March 31, 2003 the 932nd 
flew 1,888 hours of a 2,700 hour program. I am concerned that this unit 
is being disbanded based on peacetime, not wartime need. I understand 
that some of these flying hours were for mixed transportation missions.
    I would like to work with you in finding a solution to retain the 
932nd Airlift Wing at Scott Air Force Base. I suggest the following 
alternate plan:
  --Phase out the C-9s instead of precipitously retiring them over the 
        next 5 months.
  --Use fewer C-9s, but use those that have recently come out of depot, 
        saving operating costs.
  --Use C-40 aircraft in the future for a mixed mission of cargo and 
        passenger transport, as well as patient movements to replace 
        the C-9 aircraft.
    Mr. Secretary, will you work with me on this plan or some other 
plan so that the 932nd Airlift Wing is not left without a mission?
    Answer. On behalf of the Secretary of Defense, thank you for your 
concerns regarding the Air Force's readiness capability for aeromedical 
evacuation and 932nd Airlift Wing.
    The C-9A has been a valuable asset in the Air Force inventory, but 
under our new aeromedical evacuation concept a dedicated platform is no 
longer required. Extending the airplane's service beyond the end of 
fiscal year 2003 would require the use of operations and maintenance 
funds dedicated to higher priorities. We acknowledge the contributions 
of the active duty, reserve, and civilian personnel who have served so 
nobly in support of the aeromedical evacuation mission and we are 
diligently examining other options for these airmen. However, we must 
balance the impact of these aircraft retirements against the demands to 
provide for the national defense. Competition for funding is 
particularly keen, and priority will be given to requirements 
supporting reconstitution from recent contingency operations as well as 
transforming the Air Force. Resources used to extend the C-9s would be 
particularly difficult to justify since a dedicated aeromedical 
evacuation platform is no longer needed.
    I appreciate your continued support as the Air Force works to 
modernize our air and space capabilities. Our goal is to balance 
prioritized requirements with available resources to produce an 
efficient, cost-effective Air Force. We value your interest and support 
in this important endeavor.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

    Question. For fiscal year 2004 the administration is seeking $379.9 
billion for the Defense Department and has projected an average 
increase of roughly $20 billion per year over the next five years, a 32 
percent increase above current levels. These dramatic increases do not 
fully cover actual combat and peacekeeping operations in Iraq and 
Afghanistan.
    Since these operations are not fully covered in the budget, what do 
you believe the full costs will be to maintain robust and effective 
peacekeeping forces in Iraq and Afghanistan for the coming year?
    Answer. We cannot yet estimate those costs for the coming year. As 
soon as we do have an estimate, we will need to discuss with the 
President how to cover those costs.

                   HIGH ALERT STATUS NUCLEAR WEAPONS

    Question. Under the recently approved Moscow Treaty, the United 
States and Russian Federation have agreed to reduce each nation's 
nuclear arsenal by 3,200-3,700 nuclear warheads. These weapons, even 
while designated for destruction, continue to operate on ``high alert 
status.''
    Do you believe these weapons can and should be removed from ``high 
alert status'' pending their elimination?
    Answer. Under the recently approved Moscow Treaty, the United 
States and Russian Federation have both agreed to reduce their number 
of operationally deployed strategic nuclear warheads to 1,700-2,200 by 
December 31, 2012. The nuclear weapons stockpile's composition, size, 
and warhead configuration (Active or Inactive) will be determined as 
part of the periodic assessment process established by the Nuclear 
Posture Review (NPR). Operationally deployed nuclear warheads remain at 
an alert status consistent with national security requirements.
    Dealerting (removing from ``high alert'') concepts have been 
studied in great detail over the years. Our heavy bombers were removed 
from nuclear alert a decade ago. Other dealerting proposals have been 
judged not to be in the United States' interest and in many cases could 
add instability under certain circumstances.
    With regard to concern about accidental or unauthorized launch by 
U.S. forces, our Intercontinental Ballistic Missiles (ICBMs) and 
Submarine Launched Ballistic Missiles (SLBMs) are highly secure.
    With regard to concerns about accidental or unauthorized a launch 
by foreign forces, the NPR that was sent to Congress in January 2002 
specifically reviewed dealerting and reaffirming the decision of the 
previous administration not to dealert U.S. ballistic missile forces.
    Question. If they were removed from ``high alert status'' what are 
the potential cost savings?
    Answer. There are numerous options for removing nuclear systems 
from alert, but none of the options would result in meaningful cost 
savings.
    Most of the costs for strategic nuclear systems are derived from 
the infrastructure investment in delivery systems and their associated 
warheads, and from the manpower costs necessary to maintain and operate 
these systems safely.
    De-alerting these systems, whether it is by something as complex as 
physically removing the warheads from the delivery systems or something 
as relatively simple as removing a critical component in the firing 
sequence, would not reduce the infrastructure or operating costs.
    However, some dealerting proposals could require the expenditure of 
additional money (1) to construct devices that would limit the ability 
to launch a bomber or ballistic missile while allowing for its lawful 
and timely execution under Presidential direction, or (2) to provide 
for additional manpower required for verification of the dealerting 
concept were it to be employed.

                    ROBUST NUCLEAR EARTH PENETRATOR

    Question. As the United States attempts to diplomatically engage 
countries such as India and Pakistan to convince them to relinquish 
their nuclear ambitions, why should the Congress authorize $15 million 
to study a weapon such as the Robust Nuclear Earth Penetrator, which 
could undermine our efforts to limit proliferation internationally?
    Answer. Studying the feasibility of using an existing weapon to 
place at risk hard and deeply buried targets associated with weapons of 
mass destruction will not undermine our efforts to limit proliferation 
internationally. Nations seek and develop nuclear capabilities to 
address their regional security concerns, not because the United States 
has nuclear weapons. Nuclear weapons readiness and capabilities will 
continue to play a key role in U.S. national security policy and 
strategy well into the future. Today, as well as in the future, the 
United States cannot predict with confidence what nations or non-state 
actors may pose a threat to our vital interests or those of our allies. 
The United States must possess forces sufficient to dissuade and deter 
any potential adversary armed with WMD. Studies aimed at finding cost-
effective ways to place facilities associated with WMD at risk--like 
the RNEP study--are fully consistent with maintaining an effective 
deterrent.
    In the 1960s, there were five nuclear weapons states: the USSR, 
Britain, France, China, and the United States. Today, at least 12 
states possess nuclear weapons. Others are seeking nuclear weapons. The 
United States is making every effort to dissuade these nations from 
acquiring WMD. The U.S. nuclear deterrent plays a role in this effort 
by assuring our allies and friends that the United States intends to 
maintain its forces to deter any future aggression and persuade 
potential aggressors to halt developments.
    As the United States reduces the number of strategic, operationally 
deployed, weapons by two-thirds by 2012, we increasingly will have to 
look at options for more effective weapons for deterrence and achieving 
our defense goals, including programs like RNEP--a study of two 
existing gravity bombs repackaged to enhance survivability against hard 
and deeply-buried facilities. We have not abandoned conventional 
weapons to deal with the WMD facilities; rather, we have enhanced our 
conventional capabilities. We will need both advanced conventional and 
nuclear options to furnish the options we need to meet our defense 
policy goals.

        UTILITY OF ROBUST NUCLEAR EARTH PENETRATOR CLASS WEAPONS

    Question. What military utility does this new class of weapons 
have?
    Answer. Nuclear weapons have been and likely always will be viewed 
as necessary to dissuade and deter the worst of threats to U.S. 
national security, particularly the threat of weapons of mass 
destruction use against us or our friends and allies. Those who may 
contemplate aggression against U.S. territory, troops, allies, and 
friends have learned from past conflicts and adapted new defensive 
postures against our weapon systems used a decade ago in Desert Storm. 
The war with Iraq demonstrated the effectiveness of U.S. technology. 
Technology, however, is perishable. New weapons, tactics, and 
technologies must be fielded to ensure the continued effectiveness of 
U.S. forces and our ability to deter weapons of mass destruction use. 
We must assure that potential adversaries cannot create a sanctuary by 
building hard and deeply buried facilities. We need to furnish 
effective options for the President to hold at risk confidently the 
most protected of capabilities that threaten U.S. territory, forces, 
allies, and friends--which may only be possible with RNEP-like 
capability.
    The capability technically of a conventional bomb to achieve the 
structure shock effects necessary to destroy a growing class of hard 
and deeply buried targets is limited. It can be enhanced by obtaining 
exquisite intelligence on, proper delivery to, and targeting of key 
points such as target facility entrances, vents, and other nodes for 
functional disruption. However, as the depth of these targets 
increases, the ability to hold them at risk decreases to a point where 
conventional weapons are no longer effective even when the precise 
location and nature of the facility is known. If RNEP delivery, impact, 
and penetration are made comparable to today's conventional bombs, 
ground shocks produced by the nuclear blast are propagated hundreds of 
feet into the earth to address deeply buried facilities in regions 
where conventional weapons have no capability.
    Question. In the fiscal year 2004 budget, there is a request for an 
exemption of further operational testing of the ballistic missile 
defense system. In March, the Undersecretary of Defense, Edward 
Aldridge announced, ``It was not our intent to waive operational 
testing.''
    If the intent was to not exempt testing prior to fielding the 
weapons system, what was the purpose of the exemption request?
    Answer. The question refers to proposed section 8061, which reads 
in full:

    ``Sec. 8061. Funds available to the Department of Defense under the 
heading, ``Research, Development, Test and Evaluation, Defense-Wide'' 
may be used to develop and field an initial set of missile defense 
capabilities, and such fielding shall be considered to be system 
development and demonstration for purposes of any law governing the 
development and production of a major defense acquisition program. The 
initial set of missile defense capabilities is defined as `Block 04' 
Ballistic Missile Defense system fielded in fiscal year 2004 and 2005. 
Subsequent blocks of missile defense capabilities shall be subject to 
existing laws governing development and production of major defense 
acquisition programs.''

    The Department's version of section 8061, quoted above, confirms 
the developmental nature of the initial set of missile defense 
capabilities. Because Block 04 remains in system development and 
demonstration, the use of Research, Development, Test and Evaluation 
funds to pay for the development and fielding of the system is 
appropriate, and the Department ultimately must complete operational 
test and evaluation of the system.
    Question. Does testing under the guidelines of the Testing and 
Evaluation department negatively impact the program?
    Answer. No, the program is not negatively impacted by DOT&E testing 
guidelines. MDA and DOT&E have established an effective working 
relationship. DOT&E is a member of the Missile Defense Support Group 
and provides testing advice to the Director, MDA and to USD (AT&L). 
Additionally, DOT&E produces a congressionally directed annual report 
on the status and effectiveness of the MDA test program.

                                TESTING

    Question. Recently, the Missile Defense Agency cancelled Integrated 
Flight Test-16, which was dubbed the ``dress rehearsal for 
deployment.'' This test was intended to increase the agency's knowledge 
regarding the feasibility and effectiveness of GMD's initial defensive 
capability. In addition, three more test scheduled for the coming years 
have also been canceled bringing the total number of canceled tests 
disclosed this year to nine.
    Do you believe the system has received sufficient testing to be 
proven feasible and effective enough to be deployed?
    Answer. MDA is confident that the overall BMDS test program is 
scoped to provide an effective defense against ballistic missiles of 
all ranges. Additionally, MDA is always reexamining the GMD flight test 
program to ensure that proven critical components and technologies will 
be resident in the Block 2004 BMDS Test Bed.
    Question. Our experiences in Operation Enduring Freedom and now 
Operation Iraqi Freedom have demonstrated the need for strategic lift 
able to access all theaters of the battlefield, regardless of the size 
and quality of available airstrips.
    With the armed forces relying on the C-17 to fulfill many of these 
missions, are there sufficient numbers of C-17's in the inventory to 
fulfill your requirements? If not, how many additional aircraft will be 
needed?
    Answer. The Mobility Requirement Study 2005 (MRS05) established an 
airlift capacity requirement range between 51.1 and 54.5 Million Ton 
Miles per Day (MTM/D). Further evaluation during the Quadrennial 
Defense Review established the objective capacity at 54.5 MTM/D. This 
airlift capacity requirement includes strategic airlift, intratheater 
airlift, special operations, EUCOM requirements, as well as other CINC 
requirements. The current C-17 program achieves an inventory of 180 
aircraft in fiscal year 2008. At that time, the fleet will be at the 
desired capacity.

                                  F-22

    Question. Economic conditions in the former Soviet bloc may 
stimulate the proliferation of advanced military technology, 
particularly in regard to surface-to-air missiles and tactical aircraft 
like the Mig-29 and Su-27. Even though our current fighter aircraft 
have been successful in defeating various air defenses, they may not be 
capable of being modified to the extent needed to provide the stealth 
and other combat capabilities needed to cope with air defenses many 
countries may possess in future conflicts.
    Do you believe aircraft like the F-22 will be able to fill this 
role, ensuring air superiority and fulfilling the fighter/attack role 
in the decades to come?
    Answer. Yes. The F/A-22 is designed from the ``ground up'' to have 
the unique capability to operate in the presence of and suppress or 
destroy these anti-access adversary systems as required. The F/A-22's 
fundamental attributes of stealth, supercruise, advanced 
maneuverability, lethality, and integrated avionics will ensure Air 
Dominance in this decade and the decades to come. In future conflicts 
the aircraft will be essential for successful initial joint forcible 
entry and follow-on operations. The F/A-22 is a benchmark for 
Department of Defense and Air Force transformation efforts.
    Question. DOD Directive 1344.7 governs personal commercial 
solicitation on military installations. The Directive protects Service 
members from unfair business practices. I understand that DOD is in the 
process of amending the Directive. I am concerned that the changes 
being considered should not unnecessarily restrict the access of 
Service members to beneficial insurance and financial planning 
services. I understand the Department is committed to working with 
affected parties, including the insurance and financial services 
companies that solicit business on-base to develop new policy.
    Can you offer your assurance DOD will consult with affected parties 
prior to issuing any proposed draft regulation to ensure the service 
members continue to have access to competitive insurance and financial 
planning products and services?
    Answer. The Department intends to host two public fora to allow for 
comments by all those affected by the policy. The Department first 
intends to host a forum at which the public may express views about the 
current commercial solicitation policy. These comments will be 
considered in preparing the draft for publication and public comments 
as a proposed rule in the Federal Register. After publication, the 
public will be invited to comment on the draft at an additional forum. 
The Department will carefully consider the written and oral comments on 
the proposed rule in promulgating the final rule.

                              PERCHLORATE

    Question. We have now written to you on three separate occasions 
since November of last year impressing upon you the urgency for the DOD 
to take an active leadership role in mitigating the contamination of 
drinking water by perchlorate, a chemical used in most DOD missiles and 
munitions.
    What steps are you taking to respond to our domestic public health 
problem that is a legacy of DOD operations over the past half century?
    Answer. The Department's goal has been and continues to be support 
of a national process leading to mitigation of risks from perchlorate. 
The Environmental Protection Agency (EPA) is currently engaged in a 
process of investigation intended to arrive at an acceptable level of 
perchlorate in the environment. The Department, the National 
Aeronautics and Space Administration (NASA), the Department of Energy 
(DoE) and non-governmental organizations have been actively working 
with the EPA over the past several years to develop scientifically-
defensible decisions regarding perchlorate use, assessment, and 
cleanup. Since 1997, the Department has spent $2 million on research to 
assist the EPA in determining whether low-level perchlorate exposure 
poses a risk to the American public. In addition, the Department has 
invested considerable resources in the development of environmental 
treatment technologies for perchlorate, and has issued several 
significant research grants to identify possible substitutes for 
perchlorate in military applications. The Department is committed to 
using the best available science to inform public policies and 
decisions. The Department believes that the research undertaken by DOD, 
NASA, and EPA to evaluate the potential risks associated with 
perchlorate is a clear indication of that commitment. Pending 
promulgation of a cleanup standard, the Department will continue to 
work directly with state and local officials on the best strategies to 
safeguard our public water supplies.
    Question. You have argued for a transformation of the military; a 
clear need is transformation of the policies and actions that endanger 
our citizens as a result of practices of the DOD. Currently, the policy 
of the DOD towards the need for you to clean up a legacy of 
environmental pollution appears to be old fashioned thinking and not 
that of a modern defense establishment.
    When will you change the policy at the DOD and take positive 
action?
    Answer. The Department is committed to fulfilling the public's 
trust for protecting and restoring the natural and cultural resources 
on lands managed by DOD. The Department has an exemplary record of 
environmental stewardship and faithfully complies with all 
environmental laws and regulations. In addition, the Department has 
gone beyond legal requirements by funding and providing to EPA and 
state regulators important research that helps define the effect of 
perchlorate on human health. DOD has also conducted a number of surveys 
to ascertain perchlorate occurrence at DOD facilities since 1998, and 
issued policy allowing DOD components to sample for perchlorate at 
facilities where there is a reasonable basis to suspect both a 
potential presence of perchlorate and a pathway that could potentially 
threaten public health. My office is currently in the process of 
developing a more robust policy, which will be used for program 
planning and prioritization in advance of promulgation of a standard. 
The Department and EPA, in partnership with NASA and DOE, continue to 
work together to address unresolved science and science policy issues. 
The National Academy of Science is now scheduled to review the 
underlying science issues for a proposed standard. We have also 
conducted extensive studies in the technology required to cleanup 
perchlorate. These studies have developed technologies for and 
supported their use by U.S. industries. Several of these technologies 
are currently in use. DOD believes that information collected on 
potential presence of perchlorate and our long history of cooperation 
with EPA on resolving health science issues has served to augment and 
accelerate the EPA's regulatory process which will lead to an eventual 
standard.
    Question. I am very frustrated by the lack of response and absence 
of leadership on the part of the DOD and I would like to see this 
changed. My staff is prepared to work with your department and other 
agencies to find a solution.
    Whom is the point of contact for my staff to follow-up with to work 
towards resolving the problem of an absence of leadership within the 
DOD?
    Answer. The Assistant Deputy Under Secretary of Defense for 
Environment, Safety, and Occupational Health, Mr. John Paul Woodley is 
available to discuss the Department's position on this issue.

                          SUBCOMMITTEE RECESS

    Senator Stevens. Thank you, Mr. Secretary, General Pace, 
and Secretary Zakheim. The subcommittee will reconvene 
Thursday, May 15, to consider testimony from public witnesses 
concerning the President's budget request. Thank you very much.
    [Whereupon, at 12:34 p.m., Wednesday, May 14, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
